<html>
<title> - EXPORT-IMPORT BANK REAUTHORIZATION: SAVING AMERICAN JOBS AND SUPPORTING AMERICAN EXPORTERS</title>
<body><pre>[Senate Hearing 112-585]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-585

 
                  EXPORT-IMPORT BANK REAUTHORIZATION:
         SAVING AMERICAN JOBS AND SUPPORTING AMERICAN EXPORTERS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

CONTINUING OVERSIGHT OF THE RECENT ACTIVITIES OF THE EXPORT-IMPORT BANK 
        AND THE CRITICAL NEED TO REAUTHORIZE THE BANK'S CHARTER

                               __________

                             APRIL 17, 2012

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                 Available at: http: //www.fdsys.gov /



                  U.S. GOVERNMENT PRINTING OFFICE
76-397                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="680f1807280b1d1b1c000d0418460b070546">[email&#160;protected]</a>  


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 PATRICK J. TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 JERRY MORAN, Kansas
MICHAEL F. BENNET, Colorado          ROGER F. WICKER, Mississippi
KAY HAGAN, North Carolina

                     Dwight Fettig, Staff Director

              William D. Duhnke, Republican Staff Director

                       Charles Yi, Chief Counsel

                     Laura Swanson, Policy Director

                         Patrick Grant, Counsel

                 Andrew Olmem, Republican Chief Counsel

                 John O'Hara, Republican Senior Counsel

                       Dawn Ratliff, Chief Clerk

                      Anu Kasarabada, Deputy Clerk

                     Riker Vermilye, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                        TUESDAY, APRIL 17, 2012

                                                                   Page

Opening statement of Chairman Johnson............................     1

Opening statements, comments, or prepared statements of:
    Senator Shelby...............................................     2
    Senator Schumer..............................................     3
    Senator Vitter...............................................     4
    Senator Tester
        Prepared statement.......................................    23
    Senator Bennet
        Prepared statement.......................................    23
    Senator Hagan
        Prepared statement.......................................    23

                               WITNESSES

Robert Patton, President and CEO, Patton Electronics Co., on 
  behalf of the U.S. Chamber of Commerce.........................     5
    Prepared statement...........................................    24
Sonya Kostadinova, President and CEO, Transcon Trading Co., Inc., 
  on behalf of the Small Business Exporters Association..........     7
    Prepared statement...........................................    27
David Ickert, Vice President of Finance, Air Tractor, Inc., on 
  behalf of the National Association of Manufacturers............     9
    Prepared statement...........................................    31
R. Thomas Buffenbarger, International President, International 
  Association of Machinists and Aerospace Workers................    10
    Prepared statement...........................................    33

              Additional Material Supplied for the Record

Prepared statement of the Coalition for Employment through 
  Exports........................................................    36
Prepared statement of Ben Hirst, Senior Vice President and 
  General Counsel, on behalf of Delta Air Lines..................    38
Prepared statement of the American Apparel & Footwear 
  Association, National Cotton Council, and National Council of 
  Textile Organizations..........................................    44
Prepared statement of Garrett E. Pierce, Vice Chairman, Chief 
  Financial Officer, Orbital Sciences Corporation................    47
GE Project Demand 2011 charts....................................    49

                                 (iii)


EXPORT-IMPORT BANK REAUTHORIZATION: SAVING AMERICAN JOBS AND SUPPORTING 
                           AMERICAN EXPORTERS

                              ----------                              


                        TUESDAY, APRIL 17, 2012

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:04 a.m. in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. I call this hearing to order. We are here 
today to discuss the urgent need to reauthorize the Export-
Import Bank.
    The Export-Import Bank is the official export credit agency 
of the United States, and it assists in financing the export of 
U.S. goods and services. Last year, the Bank supported almost 
$33 billion in export financing and helped support 290,000 
American jobs. It is important to note that the Bank does this 
at no cost to the taxpayers, charging interest and fees to 
cover all of its expenses. The Bank actually reduces the 
Federal deficit and has returned almost $2 billion to the 
Treasury since 2008.
    As my colleagues know, last September this Committee 
unanimously approved a bill to reauthorize the Bank. If 
enacted, this bill would extend the Bank's authorization to 
2015, increase its lending authority to $140 billion, and 
implement a variety of reforms to improve transparency and 
further protect taxpayers' money. Unfortunately, our repeated 
efforts to pass this legislation in the Senate have been 
blocked.
    The Bank's goal is to use exports to help create and 
maintain jobs here at home. This mission, embodied in the 
Bank's charter, is at the very core of what Congress intended 
the Bank to do.
    However, the Bank's current authorization expires in 44 
days, on May 31st. If the Bank's charter is not extended and 
its lending cap not increased, thousands of American jobs will 
be at risk.
    Our witnesses today represent a broad cross-section of 
businesses and labor. Their testimony will help us better 
understand the consequences of a lapse in the Bank's 
authorization, both for American employers and for the workers 
and families who would lose their jobs.
    The diversity of this panel speaks to the broad public 
support for the Bank and its mission and is a testament to the 
vital role the Bank plays in helping businesses large and 
small. I believe that while the Bank is doing a good job, it 
can--and must--do more. I believe our legislation will help the 
Bank reach that goal.
    Mr. Patton, Ms. Kostadinova, and Mr. Ickert are small 
business customers of the Bank, and I am interested in hearing 
their perspective on how the Bank's financing has helped their 
businesses create jobs and compete in the international 
marketplace. I also hope to hear from President Buffenbarger 
about the impact a failure to reauthorize the Bank would have 
on American workers.
    There is simply no good reason to oppose the 
reauthorization of the Export-Import Bank. To do so would 
jeopardize thousands of American businesses, cost hundreds of 
thousands of jobs, increase the Federal budget deficit, and put 
our Nation's exporters on an uneven playing field with their 
competitors around the world. I am hopeful that today's hearing 
will help convince all of us in Congress about the importance 
of reauthorizing the Bank.
    I will now turn to Senator Shelby for any opening remarks 
he may have. Senator Shelby.

             STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Last year, as the Chairman has noted, Chairman Johnson and 
I worked together to craft bipartisan legislation to 
reauthorize the Export-Import Bank for another 4 years. That 
legislation, Senate bill 1547, not only reauthorizes Ex-Im Bank 
but also recognizes the importance of ensuring that the Bank's 
activities do not put taxpayers at risk or supplant private 
financial markets.
    As our economy continues to struggle, it is important that 
Ex-Im have the financial resources it needs to ensure that 
American exporters can compete in overseas markets. 
Accordingly, our legislation increases Ex-Im's authorization 
level. The bill does not, however, give Ex-Im a blank check, 
and it should not; rather, it authorizes the Bank at a level of 
$20 billion less than Ex-Im requested. This is a fair outcome, 
I believe, that gives the Export-Import Bank, according to our 
analysis, the resources that it needs to fulfill its mission, 
but no more.
    Our bill also contains several important reforms that will 
make the Bank more accountable. Most importantly, the Ex-Im 
Bank will have to publicly disclose more details on 
transactions valued at more than $100 million before its board 
can approve them. Ex-Im will also have to publish a strategic 
plan that details its objectives and provides metrics by which 
its operations can be evaluated.
    In addition, I believe that we need to do more to monitor 
the risk Ex-Im assumes because taxpayers are ultimately 
responsible for covering the Bank's losses. In particular, I 
believe that we need to determine if the Ex-Im Bank is properly 
accounting for market risk. That is why I insisted that our 
bill contain a GAO study to review Ex-Im Bank's risk management 
practices to determine if they pose any risk to the American 
taxpayers. I believe this study could also provide the basis 
for enacting further reforms of Ex-Im Bank's operations and 
accounting.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Shelby.
    Are there any other Members who wish to make a brief 
opening statement? Senator Schumer.

            STATEMENT OF SENATOR CHARLES E. SCHUMER

    Senator Schumer. Thank you, Mr. Chairman.
    It has been striking to watch an utter no-brainer of an 
issue like reauthorization of the Export-Import Bank suddenly 
become a matter of great controversy. This has always been a 
bipartisan issue that has been supported by both parties. What 
began as an ideological thought bubble from far-right 
Washington think tanks has suddenly become a cause celebre with 
the Tea Party. Meanwhile, millions of jobs are hanging in the 
balance.
    But I am feeling more and more confident that this 
mindlessly ideological effort to block the Ex-Im Bank has run 
its course and is about to run out of gas. I think we can have 
a deal sooner rather than late.
    For one thing, mainstream Republicans do not want this 
fight. In fact, many are embarrassed by it. The Tea Party's 
kamikaze attacks on the Ex-Im Bank has driven an unwanted wedge 
between the Republican Party and the business community. As you 
know, we in the Senate tried last month to pass the Ex-Im 
reauthorization by attaching it to a must-pass vehicle. Senator 
Cantwell offered the Ex-Im measure as a bipartisan amendment to 
the House IPO bill. The Ranking Member was a cosponsor, as was 
Senator Graham, both my good friends--one from this Committee 
and one used to be on this Committee--and we were confident we 
had 60 votes for the amendment. But then at the last minute, 
our Republican friends pulled their support from it, and the 
amendment went down. I believe they were trying to give cover 
to the House leadership, which was in a turmoil about this 
issue. It was not a proud moment.
    Almost as soon as the vote was over, many Senate 
Republicans were already wishing that the issue would come back 
again. Twenty-six Republicans signed a letter to Leader Reid 
pledging support for Ex-Im if he would give them another chance 
to vote for it. Well, we can have another vote in the Senate 
quite easily, and I believe Senator Reid is very willing to do 
that. But the concern, of course, has been the House. The Tea 
Party wants us to bite our nose off to spite our face. Leader 
Cantor has been trying to ride this bucking bronco, but he 
seems to be sensing he is about to fall off. In recent days, 
Leader Cantor has appeared more eager to negotiate a solution 
with Democrats as a way out.
    Also, my office has been in touch with Delta Airlines--they 
employ a lot of people in New York--which has raised concerns 
about the Bank's renewal previously. At this point, my 
impression is they are scaling back their demands so that a 
resolution may not be far off.
    Our bottom line is to extend the Bank's charter and grow 
its lending cap like we do in the Senate bill. If there are 
other reasonable suggestions for modest reforms, such as those 
that have already been put in the bill by Senator Shelby, we 
can take a look at them.
    So I think we are closer to a resolution than the rhetoric 
from the other side might--and the other House might lead you 
to believe. The other side knows it has taken this fight too 
far, and in the face of all this pressure from the business 
community, they cannot sustain this effort to block the Bank 
much longer.
    We are almost a month away from the Bank's charter running 
out. The Tea Party in the House has stomped its feet. Now it is 
time for the adults over there to negotiate a solution that 
puts this issue behind us.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you.
    Anyone else? Thank you all----
    Senator Vitter. Mr. Chairman?
    Chairman Johnson. Yes?
    Senator Vitter. Yes, I would like to make an opening 
statement.
    Chairman Johnson. Yes.

               STATEMENT OF SENATOR DAVID VITTER

    Senator Vitter. Thank you, Mr. Chairman.
    I agree that reauthorization of Ex-Im should be a 
relatively straightforward matter, and I think it can be if the 
key concerns that many folks have brought to bear in the debate 
are addressed directly. I want to focus on one which is, I 
think, the biggest concern, which is that some Ex-Im Bank loans 
in the past have had a clear negative impact on certain U.S. 
businesses. Senator Schumer mentioned Delta Airlines. Several 
of these examples are airlines deals.
    This goes to a broader management issue of Ex-Im Bank 
regarding the extent to which it properly looks at adverse 
impacts of loans it is considering. There is an actual 
requirement in the law that it do that in a full way 12 U.S.C. 
Section 635a-2 requires the Bank to:

        insure that full consideration is given to the extent to which 
        any loan or financial guarantee is likely to have an adverse 
        effect on industries, including agriculture, and employment in 
        the United States . . . or by increasing imports to the United 
        States.

    There has been a GAO study about the extent to which this 
absolute legal mandate is followed, and the results, quite 
frankly, were abysmal. Ninety-two percent of all Ex-Im 
transactions did not receive any adverse impact analysis--none 
whatsoever. Out of the remaining 8 percent, all but 0.2 percent 
received only modest review, not the full congressional reserve 
mandated under statute, and that was not me saying that or not 
a Tea Party member saying that. That was the GAO saying that.
    Again, this has resulted in specific deals, including many 
airline deals, that have hurt U.S. businesses. So I think this 
is the central issue--not the only issue out there, but I think 
this is clearly the central issue that needs to be addressed in 
a very full, direct way. I do not believe it is in a full, 
direct way in the current legislation, and I would urge all of 
us--all of us have an interest to put an end to those sorts of 
deals that have an adverse impact on U.S. businesses. I assume 
we do. I would urge all of us to simply focus on this very real 
issue and solve it and move forward.
    In that vein, I also think it would be very productive for 
this Committee to have the head of the Ex-Im Bank testify. The 
Chairman and President has not testified in about a year. His 
last testimony was May 17, 2011. A lot of these issues, a lot 
of these examples have come up since then, so I think if we are 
going to have discussions in a hearing like this, I think there 
is one gaping hole, which is to invite back the Chairman, the 
President of the Bank, to testify and directly address these 
issues, including why he is ignoring a clear statutory mandate 
in terms of proper analysis of adverse impacts.
    I think if we go at this in a straightforward way head on 
we can solve the issue. If we do not, there are going to be 
these continuing concerns that I have and many others have. So 
I would look forward to us adopting that path.
    Thank you very much, Mr. Chairman.
    Chairman Johnson. Thank you all.
    I want to remind my colleagues that the record will be open 
for the next 7 days for opening statements and any other 
materials you would like to submit. Now I will briefly 
introduce our witnesses.
    Mr. Bobby Patton is the President and CEO of Patton 
Electronics in Maryland and is also representing the U.S. 
Chamber of Commerce.
    Ms. Sonya Kostadinova is the President and CEO of Transcon 
Trading Co., Inc., in South Carolina and is representing the 
Small Business Exporters Association.
    Mr. David Ickert is the Vice President of Finance for Air 
Tractor, Inc., from Texas, and is representing the National 
Association of Manufacturers.
    Mr. R. Thomas Buffenbarger is the International President 
of the International Association of Machinists and Aerospace 
Workers.
    I thank all of you again for being here today. I would like 
to ask the witnesses to please keep your remarks to 5 minutes. 
Your full written statements will be included in the hearing 
record.
    Mr. Patton, please proceed.

     STATEMENT OF ROBERT PATTON, PRESIDENT AND CEO, PATTON 
   ELECTRONICS CO., ON BEHALF OF THE U.S. CHAMBER OF COMMERCE

    Mr. Patton. Chairman Johnson, Ranking Member Shelby, and 
distinguished Members of the Committee, thank you for the honor 
of allowing me to testify today. My name is Robert Patton. I am 
the president and CEO of Patton Electronics Company based in 
Gaithersburg, Maryland. I am also testifying today on behalf of 
the U.S. Chamber of Commerce.
    I am here to express strong support for the Ex-Im Bank. 
While still in college, my two brothers and I started Patton 
Electronics with the goal of financing the rest of our college 
education. We utilized our father as our venture capitalist. To 
help us get started, he gave $5,000 to each of us and later all 
of his retirement savings. And, finally, he contributed his 
basement, his wisdom, and some of his connections. Over time, 
we built our small direct-mail communications company, and over 
the years, we have developed a tremendous team and have 
continued to grow. The company now has sales in over 120 
countries and generates about 70 percent of its revenue through 
exports.
    Our best-selling products are Voice over IP products, 
mobile video surveillance products, and a wide range of network 
access devices. We have more than 100 employees today at our 
Maryland facility doing manufacturing.
    As the president of a small company, I can tell firsthand 
about the important role Ex-Im plays. The revenue our firm 
generates is our working capital. The money my customers owe me 
serves as collateral for the loans I have taken out to pay my 
employees and to cover all my other costs.
    As our business grew through the 1990s, the Internet gave 
us exposure to overseas customers, and we began to sell to them 
little by little. Exports began to comprise a measurable 
portion of my revenue, and my bank began to take notice. They 
did not want to lend against those international receivables. 
We could not afford to take orders from international customers 
in significant volumes, and in most cases we would require the 
buyer to pay in advance. This put us at a severe disadvantage 
over competitors who had the backing of their national export 
credit agencies.
    Enter the Ex-Im Bank. By providing loan guarantees and 
insurance on receivables, Ex-Im transformed our prospects. The 
loan guarantees allowed my international receipts to be used a 
collateral the same way my domestic receipts are used.
    In 2000, we started using Ex-Im's working capital line of 
credit. In the year after we added the Ex-Im line of credit, we 
grew by about 40 percent and were able to hire more than 40 new 
employees due to the boost in exports that happened through the 
use of the Ex-Im Bank. A few years later, using the Ex-Im buyer 
financing products, we were able to close a single order in 
excess of $3 million, adding more than 10 percent to our 
revenue.
    By having our revenue spread across different markets, we 
have distributed our risks so that our business is less like to 
be harmed by the economic ups and downs of one market or even a 
few local customers. Others have had the same success thanks to 
Ex-Im. The vast majority of trade finance is provided by 
commercial banks, but Ex-Im still has a vital role to play 
where commercial bank financing is unavailable or faces 
competition from foreign export credit agencies.
    Last year, Ex-Im supported export sales that in turn 
sustained nearly 300,000 U.S. jobs at 3,600 companies. However, 
Ex-Im's temporary reauthorization will expire on May 31st. 
Failure to reauthorize its operations and raise its lending cap 
would seriously disadvantage U.S. companies like mine, 
potentially resulting in the loss of thousands of U.S. jobs.
    Ex-Im is especially important to small and medium-sized 
businesses such as mine which account for more than 87 percent 
of Ex-Im's transactions. In fiscal year 2011, Ex-Im provided 
more than $6 billion in support for U.S. small businesses, an 
increase of nearly 90 percent since 2008.
    Tens of thousands of smaller companies that supply goods 
and services to large exporters also benefit from Ex-Im's 
activities. The failure to reauthorize Ex-Im would amount to 
unilateral disarmament in the fact of other nations' aggressive 
trade finance programs, and the results could be catastrophic 
for our business.
    I do not know how our bank would react. Certainly I would 
expect them to reduce our borrowing and demand payment of the 
difference. That payback would come at the expense of 
employment. If they discount our international receivables as 
collateral altogether, I would be forced to terminate as many 
as 70 people. With that kind of cut, I would not be able to 
sustain our engineering and manufacturing operations. If 
Congress refuses to reauthorize Ex-Im Bank, the message to me 
would be that I should outsource our engineering, outsource our 
manufacturing, and bring products in from overseas rather than 
selling our loan.
    As president of a company, I truly understand the 
importance of international trade and the impact it can have on 
small business. I respectfully urge Congress to move swiftly to 
reauthorize Export-Import Bank.
    Thank you for the opportunity to testify.
    Chairman Johnson. Thank you.
    Ms. Kostadinova, you may proceed.

  STATEMENT OF SONYA KOSTADINOVA, PRESIDENT AND CEO, TRANSCON 
 TRADING CO., INC., ON BEHALF OF THE SMALL BUSINESS EXPORTERS 
                          ASSOCIATION

    Ms. Kostadinova. Chairman Johnson, Ranking Member Shelby, 
and Members of the Committee, thank you for the opportunity to 
testify on the reauthorization of the Export-Import Bank of the 
United States. My name is Sonya Kostadinova, and I am the 
owner, president, and CEO of Transcon Trading Company, located 
in Columbia, South Carolina. It is my pleasure to testify 
before you here today about why continuation of Ex-Im's 
services for us is extremely important, critical for small 
businesses like mine. I am also here in my capacity as a board 
member of the Small Business Exporters Association, which we 
all know is the Nation's oldest and largest small- and medium-
size exporter association and which is a council of the 
National Small Business Association.
    Small Business Administration data shows that approximately 
70 percent of all U.S. exporters have 20 or fewer employees. 
Transcon Trading is one of these companies. Our mission in life 
is to help other small- and medium-size U.S. manufacturers to 
create brand awareness of their products overseas, establish 
exports, and increase existing exports, if any, by providing 
value-added services in all facets of exporting.
    Transcon is an export management company that essentially 
represents about 80 U.S. manufacturers overseas and tries to 
establish distribution networks for them over there. They come 
from several different industries. One of them is consumer 
personal care and health care products; another one is 
performance products for racing horses; another one is pet food 
and pet care products, and we have some specialty care 
products.
    We essentially perform the functions of an export 
department for those small U.S. manufacturers that cannot 
afford to have their own or do not have the expertise to 
establish or to build their own in-house export department or 
simply opt to tap into our already existing international 
distribution network.
    I would like to share with you our experience in how Ex-
Im's export credit insurance policy has actually helped us stay 
in the international arena and expand exports for us and for 
our manufacturers by mitigating both our commercial and 
political risk, how the same insurance policy actually had made 
our foreign receivables eligible for financing, and how now 
that we have reached a further stage in our development as a 
company--and many of our manufacturers have as well due to the 
support of Ex-Im--we are ready and were getting ready to use 
some of the more advanced products and lending capabilities of 
Ex-Im but had to actually put on hold those projects because of 
the uncertainty that the lack of reauthorization created.
    Exporting is not easy. Many people have an incorrect 
assumption of exporting, associating it mainly with the 
logistics of an export transaction. We have to perform a whole 
host of other international business-generating activities for 
our manufacturers, such as identifying foreign buyers overseas, 
importers, distributors; marketing and advertising the U.S. 
products over there; doing registrations with foreign 
governments to meet certain requirements; product adaptation to 
meet foreign country requirements; the entire export package, 
documentation package, to aid in customs clearance overseas, 
and many more.
    We do take title of the goods, therefore the financial 
responsibility for those goods that we export for our 
manufacturers. In other words, we buy the goods from the 
manufacturer. We pay them, the U.S. manufacturer, we pay them 
as soon as the goods leave their warehouse, at the same time 
extending favorable credit terms to the international buyers--
those that qualify, of course.
    Now, right here Ex-Im comes to play a very instrumental 
role for us by insuring our foreign receivables. We have a 
multi-buyer export credit insurance policy with Ex-Im, 
including this year discretionary credit limit and SBCL, which 
is a special buyer credit limit, and have used those services 
since 1993. Ex-Im has been a strong driving force behind our 
growth, and it helped us double our exports. And in our 
experience, any U.S. company that is able to offer competitive 
credit terms to international buyers can, indeed, increase 
their exports by 40 to 60 percent.
    Now, this is difficult for small businesses to get the same 
services from the private sector. They are either unavailable, 
or if they are available, they are at a cost which is not 
affordable for any small business like ours.
    In addition, we found out the hard way that many U.S. banks 
would not even provide working capital to us because they do 
not take as collateral foreign receivables, only domestic--like 
Bob correctly mentioned, only domestic receivables and 
inventory and equipment. But because we had our foreign 
receivables 95 percent covered by Ex-Im Bank, that allowed us 
to leverage them along with our inventory, which is also for 
foreign sales, and to get our credit line extended, which, of 
course, for many small businesses is like--it is a positive 
side effect, but it is like a lifeline support for the 
existence and expansion in international sales in particular.
    And as our prominence overseas has grown, again, with the 
help of Ex-Im, we now are in a position to tap into the other 
resources, other programs which we have not used before that 
Ex-Im has to offer. However, we had to put those projects on 
hold recently due to the uncertainty that this non-
authorization created for us.
    Therefore, we need Congress' understanding, and truly 
acting swiftly would be in the best benefit for small 
businesses like mine in this country. We urge Congress to 
reauthorize Ex-Im Bank for 4 years and at the $140 billion 
level cap, and any inaction or even a temporary action, I 
believe that would also have a paralyzing effect on our efforts 
to go through with some of these projects and international 
sales that we now have on the table for us.
    Thank you once again for allowing me to share our 
experiences and our fears with you. We put our faith in you, 
and we believe that you will indeed see Ex-Im as the agency 
that generates results and creates results for us small 
businesses rather than a taxpayer's burden. And I do believe 
that by growing small businesses' exports, we ultimately grow 
U.S. exports, the U.S. economy, and U.S. jobs.
    Thank you.
    Chairman Johnson. Thank you.
    Mr. Ickert, you may proceed.

   STATEMENT OF DAVID ICKERT, VICE PRESIDENT OF FINANCE, AIR 
    TRACTOR, INC., ON BEHALF OF THE NATIONAL ASSOCIATION OF 
                         MANUFACTURERS

    Mr. Ickert. Chairman Johnson, Ranking Member Shelby, and 
Members of the Committee, thank you for the opportunity to 
appear before you today about this very important issue of 
reauthorizing the Export-Import Bank. My name is David Ickert. 
I am the vice president of finance at Air Tractor. We are 
located in Olney, Texas.
    Air Tractor is a small business, 270 employees, one 
location. We are 100 percent employee owned. We build 
agricultural airplanes--crop dusters, if you will--and forestry 
fire-bombing airplanes, and we sell them all over the world.
    As I noted, Air Tractor is located in Olney, Texas. I 
believe it is helpful to know a little bit about Olney, Texas, 
my hometown. We are 100 miles west of Fort Worth. The 
population is 3,000 people. We are small, we are rural. I 
describe it sometimes as the town has got three red lights and 
a Dairy Queen.
    But I think there is importance to that. The importance is 
that in Olney, Texas, exports are thriving, business is 
thriving, employment is happening. Now, this not only happens 
for small businesses, it happens for large businesses also. So 
Export-Import Bank is important to small businesses, large 
businesses, urban areas, and country towns. But my story is 
about Olney, Texas, and Air Tractor.
    We principally use the medium-term credit insurance program 
of Ex-Im. We submit individual packages to the Bank for their 
underwriting and their approval. Once they get those approvals, 
then we are able to ship the product, take a note for the sale, 
financing our end-user customer, and then sell the notes to our 
commercial bank. That gets us out of the transaction from a 
cash-flow standpoint.
    The important things here are that without Ex-Im Bank and a 
lot of these sales, our customers in those countries, in those 
foreign countries, do not have the banking system to support 
their purchase of that product. Also, without Ex-Im finance, 
our commercial bank would not buy the paper or finance the 
transaction. Bottom line, many of these transactions, these 
export transactions that we are able to do and to create jobs 
with in Olney, Texas, would not happen without the Export-
Import Bank.
    We first starting using the Bank and its products in 1995. 
At that time our exports were 10 percent of our sales. Over the 
years we have continued to use Ex-Im, and we have continued to 
grow our export sales, and we have continued to increase our 
employment.
    Over the last 5 years, our exports have increased from 36 
percent in 2007 to over 50 percent for 2010 and 2011. During 
that same period, our employment has risen from 165 people to 
267 people. That is significant to Olney, Texas. The increase 
in employment happens because of exports, and many of the 
exports would not happen without Ex-Im Bank.
    Just let me emphasize to you that without the Bank, without 
Ex-Im products, there is not a commercial bank in this country 
that is going to lend to our end-user customer in Brazil or 
Argentina, and there is not a bank in Argentina that is going 
to lend to our customers. So that shows you the nexus and what 
happens with the Bank as far as our situation being able to 
create sales.
    It is important to note that since 1995, Air Tractor has 
completed over 100 Ex-Im medium-term deals in excess of $60 
million. Air Tractor has never made a claim on the Bank. The 
Bank has never lost one dime on Air Tractor. So our business is 
good for Ex-Im, it is good for Air Tractor, it is good for our 
employees, it is good for our customers, it is good for Olney, 
Texas, and it is good for the U.S. economy. But the good comes 
to an end if the Bank is not reauthorized at an adequate 
lending cap, and that is what we are looking at today.
    Let me briefly illustrate how that impacts Air Tractor as 
we now sit. We have 175 planes planned for production in 2012; 
44 of those have been identified as needing Ex-Im support, 25 
percent of our production. Without Ex-Im support, many, if not 
all, of those 44 sales will not happen. If they do not happen, 
then that means 25 percent of our employees have their jobs at 
risk. That is 68 jobs in Olney, Texas. That is significant to 
us, that is significant to our employees, that is significant 
to Olney.
    So, in conclusion, let me just say that the Bank has been 
very key and very important to us growing our exports, to 
increasing our employment, and we have not suffered one dime of 
expense to the Ex-Im Bank. So we wholeheartedly support the 
reauthorization of the Bank for a 4-year period at an adequate 
lending cap.
    Thank you.
    Chairman Johnson. Thank you.
    Mr. Buffenbarger, you may proceed.

 STATEMENT OF R. THOMAS BUFFENBARGER, INTERNATIONAL PRESIDENT, 
 INTERNATIONAL ASSOCIATION OF MACHINISTS AND AEROSPACE WORKERS

    Mr. Buffenbarger. Thank you, Chairman Johnson, Ranking 
Member Shelby, and Members of this Committee, for the 
opportunity to testify before you today on the vital importance 
of the Export-Import Bank to our industrial base and the 
creation and preservation of American manufacturing jobs. My 
name is Tom Buffenbarger, and I serve as International 
President of the International Association of Machinists and 
Aerospace Workers, also known as the IAM. As a broadly 
diversified manufacturing union and the largest aerospace union 
in North America, representing over 700,000 active and retired 
members, the IAM is particularly concerned about the need to 
fully reauthorize the Ex-Im Bank.
    While much of the Ex-Im Bank's focus relates to the sale of 
Boeing aircraft, we also represent workers at companies like 
Caterpillar, Pratt and Whitney, John Deere, and General 
Electric, as well as numerous small and medium-sized firms that 
export a variety of American-made products crucial to our 
economic health. Given our members' work with these exporting 
firms, we are uniquely positioned to share with you our strong 
belief that the Ex-Im Bank's reauthorization must be approved 
immediately. Indeed, the Ex-Im Bank is one of the few tools we 
have to support exports that in turn contribute directly to 
American jobs. At a time when our fragile economy is still 
recovering and millions of manufacturing workers are still 
without work, we are baffled why the Ex-Im Bank's 
reauthorization and, consequently, its ability to fulfill its 
critical mission is being held up. This mission, however, 
cannot be fully accomplished if domestic content requirements 
are weakened as some have proposed. There is a clear link 
between American jobs and domestic content. We should look to 
strengthen, not weaken, these vital provisions; otherwise, the 
Ex-Im Bank will be engaging in corporate welfare that would 
incentivize the offshoring of American jobs.
    Global competition has never been more intense and the 
stakes for our economy have never been higher as U.S. firms and 
workers struggle to compete in today's global marketplace. 
Successful countries recognize the importance of a strong 
manufacturing sector and the true nature of global competition. 
These countries know that there is no such thing as a free 
market and provide strong support for critical wealth- and job-
creating industries like aerospace.
    The United States, unfortunately, has too often blindly 
embraced a free market ideology that has opened our domestic 
markets to foreign goods while offshoring the production of 
American-created technologies and products, as well as millions 
of good-paying jobs. We have repeatedly seen this with 
electronics, green technologies, and a host of consumer 
products. The result has been a gaping trade imbalance with the 
rest of the world. According to the U.S. Census Bureau, our 
trade imbalance grew by more that 10 percent in 2011 to over 
$558 billion. And while there was a small positive balance in 
services, the deficit in goods increased by 14 percent to over 
$737 billion with the largest increase coming in our deficit 
with the People's Republic of China, a rapidly growing country 
that engages in a variety of unfair trade practices--illegal 
subsidies, forced technology transfer, currency manipulation, 
and an array of other ills.
    The Economic Policy Institute estimates that over the last 
decade our trade imbalance just with China has cost the United 
States nearly 3 million jobs, and many of these jobs have been 
in manufacturing, a sector in which each manufacturing job 
supports three to four additional jobs in the economy. With our 
economy struggling with persistent high unemployment and 
starving for more rapid job creation, it is no surprise that so 
many working families have such a dim view of the future.
    Nor should it come as a surprise that countries across the 
globe have set their sights on one of the few remaining sectors 
where the United States enjoys a positive balance of trade with 
the rest of the world: aerospace. For 2011, the U.S. aerospace 
industry had a trade surplus of $7.25 billion, the largest of 
any advanced technology sector. According to a recent study by 
Deloitte on the economic effect of the U.S. aerospace and 
defense industries, aerospace products and parts manufacturing 
contribute over $40 billion to U.S. payrolls and impact every 
State.
    It should be noted that the U.S. military and commercial 
aerospace sectors are deeply interconnected, particularly in 
the supply chain, and many of our members will work on both 
military and commercial aerospace products. Weakening our 
commercial sector will have a direct impact on the capabilities 
of the U.S. aerospace defense industrial base.
    The Bank has never been directed to balance the interests 
of U.S. exporters against the interests of some airlines like 
Delta Air Lines, and if Delta were truly interested in 
supporting U.S. workers, it would argue that the Bank's rules 
be changed so that it, too, could be permitted to assist U.S. 
airlines in the purchase of domestically produced aircraft. 
Sadly, while Delta recently took advantage of Ex-Im Bank 
financing to win a contract to perform heavy engine maintenance 
for a Brazilian airline, it seems that Delta is more interested 
in destroying one of the U.S. Government's most effective tools 
for spurring growth and creating American jobs by seeking to 
insert language in the Ex-Im Bank reauthorization to 
specifically eliminate financing for wide-body aircraft.
    Mr. Chairman, I have more to my remarks that will be 
submitted, but I would like to go on record for the 
International Association of Machinists and Aerospace Workers 
strongly encouraging this Committee and the U.S. Senate to 
approve full reauthorization of the Ex-Im Bank and, in fact, 
expand its mandate.
    Chairman Johnson. Thank you. Thank you for your testimony.
    As we begin questions, I will ask the clerk to put 5 
minutes on the clock for each Member.
    For all the witnesses, what are the downsides to continuing 
to authorize Ex-Im for only short periods of time, like 1 or 2 
years? How do short-term reauthorizations impact the need for 
certainty in planning for future export opportunities? Mr. 
Patton, let us start with you.
    Mr. Patton. Thank you very much. The impact on my company 
would be that we would be making plans on reducing. When we 
have only a 1-year window that we can see out, or 2 years, then 
we have to plan that the facility is going to go away. And if 
the facility is going to go away, then we are going to be 
looking to preserve as much of our business as we can and get 
out of certain markets, reduce employment over time so that it 
happens in a soft fashion.
    Chairman Johnson. Ms. Kostadinova.
    Ms. Kostadinova. Thank you. Yes, I think that this would 
have a paralyzing effect, particularly on our new projects and 
our new ability to tap into Ex-Im's lending capability. In 
other words, it will absolutely prevent our growth. We may be 
able to maintain some of our short-term customers through the 
credit term facility, of course, but ultimately that will go 
away, too. So I would imagine that most of our manufacturers 
and other small businesses like mine would suffer greatly from 
such a short-term action.
    Chairman Johnson. Mr. Ickert.
    Mr. Ickert. Mr. Chairman, I talked to you about what would 
happen to us currently in 2012 if the Bank is not reauthorized, 
but you bring a very interesting point to the table on the 
uncertainty of short-term reauthorization. We are currently 
taking orders for 2013. We have a supply chain to plan. We have 
customers to talk to. We have personnel to put in place. And 
that uncertainty of a short-term reauthorization makes that 
very difficult for a small business; it makes it very difficult 
for any business. So that is why we strongly urge a 4-year 
renewal.
    Chairman Johnson. Mr. Buffenbarger.
    Mr. Buffenbarger. Thank you, Chairman. The products the 
members of my union manufacture, such as Boeing aircraft or 
John Deere and Caterpillar agricultural equipment, machine 
tools and general aviation products, all require long lead 
times, and it requires that the customer, the purchaser, have 
the assurance that after waiting that period of time they are 
going to have the financing available to close the deal. We 
need this Bank's financing to assure there is long-term 
stability in our manufacturing industries.
    Chairman Johnson. Mr. Patton and Mr. Ickert, can you 
discuss how your company interacts with other manufacturers in 
the supply chain? And can you talk about how failure to 
reauthorize the Ex-Im Bank could affect these suppliers?
    Mr. Patton. Certainly. Our product is Voice over IP. We are 
in the electronics business. We have literally thousands of 
components from hundreds of different suppliers that get built 
into our product. As the volume goes down, our purchases would 
go down, and that would have, obviously, a negative impact on 
their revenue and the jobs that would be available at their 
companies as well.
    Chairman Johnson. Mr. Ickert.
    Mr. Ickert. Like Mr. Patton, we manufacture our aircraft, 
and so we have a lot of components that we are buying from 
vendors all over this country. Our supply chain is--as I said, 
we have to go out for some time. Many of our vendors are small 
businesses also, so we are significant to them, and any adverse 
impact we have in our business would directly impact adversely 
those businesses in our supply chain.
    I might add additionally, as I mentioned, we are a small 
town. We have small business retail businesses on Main Street. 
Those people would also be adversely impacted if we had an 
authorization or non-authorization that would adversely affect 
our business because it would affect them also.
    Chairman Johnson. Mr. Buffenbarger, can you discuss what 
effect you think a failure to reauthorize Ex-Im would have on 
high-paying American jobs in the United States?
    Mr. Buffenbarger. An absolutely devastating effect would 
occur on jobs with layoffs coming almost immediately, not too 
different than we see right now with the threat of 
sequestration of the defense budget. Where there is uncertainty 
in a marketplace, the natural reaction is to hold tight and not 
make any big, long-term decisions. And when that occurs, the 
first casualty is the person who holds a job. And we would not 
be here today so adamant about this if we did not strongly 
believe that the long-term best interests of the United States 
and its workforce are impacted greatly by the reauthorization 
of the Ex-Im Bank; and if not, we are going to be dealing with 
a very, very serious issue of another recession, maybe greater 
than the one we are just starting to emerge from now.
    Chairman Johnson. Mr. Patton, can you explain how having 
Ex-Im's support helps American businesses compete against 
foreign companies that have export credit agencies in their own 
countries?
    Mr. Patton. Yes, absolutely. The business that we have 
around the world is highly competitive. Electronics information 
technology is one of the keystones of most economic business 
development groups, and so there is a big emphasis there. 
Whenever I go into the international marketplace, particularly 
in the emerging markets, and, in particular, markets where 
there is mineral-rich opportunities there and countries want to 
have friendly relations with foreign governments, then it is a 
no-holds-barred competition. And I have seen and heard of cases 
where certain foreign countries would come in and say whatever 
the Americans are offering, we will do it for 40 percent less, 
and we will give you a 5-year financing deal. And they come in 
right out of the gate with that kind of proposal. That leaves 
me lagging behind trying to respond with whatever credit 
facilities I can bring.
    Chairman Johnson. Senator Shelby.
    Senator Shelby. Thank you. Mr. Chairman, I have a number of 
questions I would like to propound for the record, if I could.
    Chairman Johnson. Yes.
    Senator Shelby. I think all of your testimony is very 
interesting today. As the Chairman pointed out, I am a 
cosponsor with him of this legislation. I think that there is 
no other game in town right now, that we need the Export-Import 
Bank, but we need it to be accountable to the taxpayers. We 
want to make sure of that.
    I want to ask all of you a question. For the services, you 
are charged a fee, are you not? Let us start with you, Mr. 
Patton. Let us say you sell a lot of stuff overseas; you create 
jobs here in Maryland, which is good; and you have accounts 
receivable. Does the Export-Import Bank--they do not give you 
anything. They charge you a fee for this service. Is that 
correct?
    Mr. Patton. That is correct. There is a fee for the 
service. We pay interest and other fees for----
    Senator Shelby. And for that, then you can go to a bank, 
and, of course, a local bank can get your money and carry on 
your business, and stay afloat, right?
    Mr. Patton. That is correct. And in addition to the fees, 
there is also accountability on my part. I have to undergo two 
audits every year in order to substantiate the loans that I 
have.
    Senator Shelby. Ms. Kostadinova--is that right?
    Ms. Kostadinova. Yes, Kostadinova.
    Senator Shelby. Now, are you a broker or whatever it is of 
other--say if I were in business in Alabama and did not know 
anything about exports, but I had a product that somebody in, 
say, Germany wanted to buy, could you help me with that?
    Ms. Kostadinova. Yes, absolutely.
    Senator Shelby. And what would you say to me? I know you 
charge a fee for it, but that is understandable.
    Ms. Kostadinova. No, no. In fact, we do not charge a fee at 
all.
    Senator Shelby. You do not charge a fee?
    Ms. Kostadinova. We do not charge a fee. It is absolutely 
at no cost and no risk for the U.S. manufacturer. What we do 
is, like I said earlier, we essentially take title of the 
goods. In other words, we buy the products from the U.S. 
manufacturer.
    Senator Shelby. And is that generally account receivable?
    Ms. Kostadinova. No. The accounts receivable, the foreign 
accounts receivable becomes when we actually sell these same 
products to the foreign buyers.
    Senator Shelby. Would you buy the airplanes from him to 
resell them? Is that what you are talking about?
    Ms. Kostadinova. Right, but our products are consumer 
products and they are not airplanes.
    Senator Shelby. I know that. We understand.
    Ms. Kostadinova. So that is easier to do. So we essentially 
buy the products, pay the U.S. manufacturer right away so they 
do not have any risk whatsoever in----
    Senator Shelby. You buy from them, write them a check, and 
then it is your product, and you export it.
    Ms. Kostadinova. Exactly. And then we sell it to the 
foreign buyers overseas, and then we extend credit terms to the 
foreign buyers overseas. And to support the earlier question 
that you had, for instance, we had a very big customer in Saudi 
Arabia whom we lost because we have a competitor over in the 
U.K., a competitor to our manufacturer's products, and they 
offered like, you know, $1 million short term, medium term, 
whatever the best is possible.
    Senator Shelby. They offered better terms.
    Mr. Kostadinova. Exactly. And they immediately, just like 
you said, went out the door with that, and we were left 
nowhere. Ex-Im Bank was very instrumental in that in helping 
us.
    Senator Shelby. Do you keep up with the default rate on 
your accounts?
    Ms. Kostadinova. Yes, we do.
    Senator Shelby. And I know you are audited by the Export-
Import Bank.
    Ms. Kostadinova. Yes, we do. Yes, we do. In fact, I would 
say that on our $50 million worth of foreign receivables that 
we have had insured by Ex-Im Bank, we have had about $200,000 
only in claims--no claims since 2006, actually, only one for 
$2,500 or less. So Ex-Im is making money off of us. On this $50 
million, we paid $364,000 premium----
    Senator Shelby. They are making money off of you, but they 
are providing you an essential service.
    Ms. Kostadinova. Absolutely. Exactly.
    Senator Shelby. That is the point.
    Ms. Kostadinova. Yes, that is it. Thank you.
    Senator Shelby. Mr. Ickert, do you sell your products 
directly? Say I was in the Ukraine and I had need of your 
services and I wanted 10 crop dusters, or whatever you call 
them, air tractors, and I wanted to buy them, you wanted to 
sell them, I say I need some financing, and you go to the 
Export-Import Bank to try to work that out. Is that how you do 
that?
    Mr. Ickert. Yes, sir. We would go first to you as the 
customer. We would evaluate your creditworthiness, and to the 
extent we deemed it creditworthy, then we would submit that----
    Senator Shelby. The ability to pay back whatever you sell.
    Mr. Ickert. Yes, sir. We would submit that file to Ex-Im 
Bank for their underwriting. They in turn, once they approved 
it, would give us their credit insurance, and we pay a fee for 
that.
    Senator Shelby. You pay a fee to them.
    Mr. Ickert. Yes, sir. In 2010, we paid over $300,000 in 
premium fees to the----
    Senator Shelby. And how much credit did you have for that?
    Mr. Ickert. Probably around $15 to $20 million.
    Senator Shelby. What is the default rate on your product 
selling overseas, dealing with the Export-Import Bank? What is 
your default rate?
    Mr. Ickert. Senator, as I mentioned, we have had over 100 
deals, and Ex-Im Bank has never lost a dime on us.
    Senator Shelby. That is good. My time is up. Thank you.
    Chairman Johnson. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Thank you all 
for your testimony.
    I want to just explore a little bit--I am a supporter of 
the Export-Import Bank, but I just want to press its importance 
and its relative size compared to other countries. What does 
the new funding cap for Ex-Im of $140 billion for Bank support 
to American exporters compare with export bank support by other 
countries to their exporters? Does anyone on the panel have any 
sense of that?
    Mr. Ickert. Senator, I cannot give you the absolute 
dollars, but I have seen a recent chart that showed something 
like the support of 10 different ECAs throughout the world, and 
Ex-Im is by far the smallest in dollar commitment. What the 
Bank is able to do is help us as manufacturers and exporters is 
level that playing field enough to get our products in the 
door.
    Senator Menendez. So let me----
    Mr. Patton. I have a chart right in front of me here. Japan 
and Germany are in the $150 billion range. China in 2009 was 
$200 billion. They are up to $300 billion. And from my 
experience, the amount of support that we get from the Ex-Im 
Bank is a fraction of what I see from my fiercest competitors 
in Asia.
    Senator Menendez. Yes. And, in fact, it seems to me that 
the failure to reauthorize the Bank amounts to America's 
unilateral disarmament in the face of other Nations' aggressive 
trade finance programs. Canada, for example, supports an export 
credit agency that has extended nearly 3 times as much export 
financing as Ex-Im, even though its economy is one-tenth the 
size of the United States. And China has three export credit 
agencies that last year provided $300 billion in export finance 
to its exporters, 10 times more than Ex-Im provided. So it is 
tough to compete in a global market when other countries are 
rigorously supporting their domestic companies in this regard. 
So I think that is very important to keep in focus.
    One criticism of the Bank has been its focus on large 
business rather than sharing or spreading its support on small- 
to medium-size businesses that need more assistance to enter 
the export market. Although in FY 2011 Ex-Im provided about $6 
billion in financing and insurance for U.S. small businesses 
out of a total of almost $33 billion in total authorization, I 
appreciate this is a substantial increase from what has 
happened in the past, but it still means that the bulk of 
assistance is going to large businesses.
    How important is it for Congress to pass this 
reauthorization to support more small businesses and mid-sized 
businesses? And what can Ex-Im do to increase its support for 
that universe?
    Mr. Patton. I will just talk on the proportions. In my 
business, it is an 80/20 world. There is 20 percent of my 
customers that represent 80 percent of my revenue, and I 
imagine Ex-Im Bank has a similar ratio in their business 
transactions as well. Very large companies are going to have a 
demand for very large facilities when they are selling big-
ticket items. In my business, I sell really small devices. The 
average transaction size is probably under $10,000. So I would 
expect that the number of transactions that Ex-Im supports for 
me probably exceeds the number of transactions that they 
support for Boeing or any other large equipment manufacturer, 
because I do thousands and thousands of transactions.
    Senator Menendez. But we always hear, I hear many of my 
colleagues here in speech after speech talk about small 
businesses and mid-sized businesses being the backbone of 
America, the job creators, the ones that are going to help us 
lead the way into greater prosperity. So while I understand the 
transactional aspect of your answer, it seems to me that an 
effort by the Bank to get a universe of small and mid-sized 
businesses to be more robustly engaged will be necessary. Mr. 
President, do you want to--I like to use the term ``Mr. 
President'' whenever I can.
    [Laughter.]
    Mr. Buffenbarger. Thank you. The U.S. Chamber of Commerce 
is--and ironically, this is an issue that organized labor and 
the chamber find common ground on in supporting the 
reauthorization. But the records the chamber has shared with us 
show that small businesses make up 87 percent of the Ex-Im's 
transactions. And I think that goes very far in helping people 
understand that it is the small supplier to maybe a large 
equipment manufacturer also benefits by having the guarantees 
this Bank is able to provide.
    Senator Menendez. So the percent of transactions is high. 
The dollar figure is lesser. All right. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Moran.
    Senator Moran. Mr. Chairman, thank you. I thank each of the 
witnesses for their testimony and for being here.
    In the absence of the Bank, is there any other option you 
have to go to for that guarantee that would enhance the chances 
of sales to foreign countries or consumers in foreign 
countries? Is there any private sector option or is the Export-
Import Bank the only option?
    Ms. Kostadinova. Thank you. I do not think that for us, 
particularly the smaller small businesses, that there is 
another option. Like I said, I was talking through experience 
earlier that we have learned the hard way that, number one, it 
is almost impossible for us to get our foreign receivables 
insured by the private sector. If we get an offer, it would be 
extremely expensive. Like I mentioned before, those numbers on 
$50 million, $364,000 premium that we paid, that puts our 
average at a lot less than 1 percent. There is no private bank 
that has offered me at least anything like that. And they need 
a cap, that they want us to cap it up front. Well, we do not 
know what is going to happen tomorrow, so it is hard to say, 
OK, I am going to pay up front now a higher premium than this, 
and on a lot higher estimate that I may have at the end of the 
year, whereas Ex-Im allows us to pay those premiums as the 
transactions occur, actually within 30 days after the 
transaction occurred, which is a blessing for us as well in 
that aspect.
    Regarding the working capital, absolutely not possible. 
Just in the last couple of years, I have been to a number of 
banks, and unless I had the 95-percent foreign receivables 
covered by Ex-Im Bank, I would not have gotten the credit line.
    Senator Moran. Is that true across the board? Is there just 
no other option? Obviously not a practical one for you, but is 
there anybody who does this business outside Export-Import 
Bank?
    Mr. Ickert. Senator, we have used some private insurance 
over time. One of those particular firms that we used more than 
others went out of business several years ago. Another firm 
quit, exited medium-term business.
    For the most part, there is no option for us. There has 
been some out there, but, one, they do not really like small 
businesses. There are not many of them out there right now, if 
any. And, also, they are very restrictive in their markets, in 
which markets they will go in and will not go in. That has been 
the beauty of Ex-Im Bank is that they have been the constant 
that has helped us to reach out to markets on a broad spectrum.
    Senator Moran. Yes, ma'am.
    Ms. Kostadinova. I am sorry. I just wanted to add on to 
what David said. During the Great Recession, many of those in 
the private sector that actually had still provided some of 
that foreign receivables insurance--to some bigger companies, 
though--they stopped doing it, which created a mess, because 
once they stop covering the foreign receivables, then the other 
private bank that is actually giving them the credit operating 
capital to those companies that I know, they stop doing that as 
well, not having the backup of the receivables. So, yes, and 
Ex-Im did not change anything, did not change nothing during 
the recession, so it was great.
    Senator Moran. There has been a lot conversation, 
especially here in Washington, D.C., about reforms or changes, 
if we are going to reauthorize the Bank that we need to 
``reform''--it is actually a word I have tried to take out of 
my vocabulary because most things Washington, D.C., reforms 
seem to me to end up worse than they were before the reform. So 
alterations or changes, are there any that make sense to you or 
are there any that you have the opposite reaction to, that this 
makes no sense, do not do this? Any instructions to the 
Congress in the so-called conversation that we have about 
reforming the Bank? Mr. Patton.
    Mr. Patton. Yes, I would say that you need to be careful 
about creating rules that are one-size-fits-all. You know, 
there is a certain amount of risk for a small transaction base 
which is different than the risk on the large transaction. And 
so the relative safeguards need to be in place in scale, in 
proportion to the business.
    Senator Moran. Good advice. Yes, sir.
    Mr. Ickert. The current charter of the Bank has 20-percent 
required authorizations for small business. Back to Senator 
Menendez's question earlier, I think that is very important 
that that remains to encourage small businesses to enter the 
export market and to grow these businesses' employment and 
market. But, also, I would--nothing specific other than you 
have heard also some of the facts and figures about the large 
amount of export support that comes from other ECAs to their 
businesses, and if it is not absolutely viable, I would be 
loath to hang many restrictions on the Bank that would only 
encumber them more and, in fact, would encumber small 
businesses or businesses in general trying to use the Bank.
    Senator Moran. Mr. Chairman, thank you.
    Chairman Johnson. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman, and I would like 
to thank you and the Ranking Member for your bipartisan work on 
this, and I hope that we will get it reauthorized in short 
order. If there is any issue that more closely reflects the 
dysfunction of this town and the detachment of this town from 
what is actually going on in the country, I think this is it, 
our inability to get this done.
    I was just at home in Colorado over the last 2 weeks 
visiting with small businesses that have had the benefit of the 
work that the Export-Import Bank does. It is hard enough to 
start and succeed at small business. It is even harder to grow 
your business by exporting, and somehow Washington is figuring 
out how to make it even more difficult.
    And I wonder, Mr. Patton--you were first person to talk 
about unilateral disarmament here--are you under the impression 
that there is any other country who is home to competitors of 
yours that is unilaterally disarming at this moment?
    Mr. Patton. Not at all.
    Senator Bennet. Do you think that our failure to 
reauthorize this Bank would lead any of the other countries 
where you compete to decide that that kind of disarmament is a 
good idea?
    Mr. Patton. There is no way that I can see that happening.
    Senator Bennet. You described this as ``no holds barred.''
    Mr. Patton. That is right.
    Senator Bennet. Like ultimate fighting.
    Mr. Patton. That is right.
    Senator Bennet. Can you give the Committee a sense of what 
that looks like on the ground for you? And anybody else who 
would like to get in on this, please do.
    Mr. Patton. Well, on the ground the competition is fierce. 
I am in the electronics communications business. I do not know 
how many devices you have in your home that are electronic made 
in the USA. But, you know, the competition is----
    Senator Bennet. I mostly am engaged in the process of 
getting my daughters to shut them off.
    [Laughter.]
    Mr. Patton. I appreciate that, too. I have three daughters 
in college. So, yes, the competition is unbelievable. The 
margins get shaved lower and lower and lower, particularly in 
price-sensitive markets in the developing world, and there is 
just an awful lot of support coming from the various 
governments around the world to make that business happen.
    Senator Bennet. Anybody else? I am going to come to you, 
Mr. Ickert. I was in Denver visiting a company called Coolerado 
that makes cooling systems that they export abroad. In fact, 
literally, Mr. Chairman, the day that I was there, they had 
backed up a container, and they were loading the mechanisms 
that they make on that container and shipping them to Europe as 
a consequence of the insurance they were able to get through 
the Export-Import Bank. And you had mentioned that in the 
context of nobody in Argentina being willing to provide that, 
nobody in Brazil being willing to provide it, and not being 
able to get it here without Ex-Im Bank. I wonder if you could 
talk a little more about that.
    Mr. Ickert. Not only would our customers in Argentina not 
be able to buy the airplane without Ex-Im's support, it just 
does not exist for them down there. As small customers, their 
banking structure is such that they are not able to access 
credit. The same thing, we do not have any banks in the United 
States that would loan money to our customer in Argentina. So 
it just would not happen. That sale would not happen.
    With that sale, they are able to be more productive; they 
are able to create more export sales of their own. But without 
Ex-Im, it just would not happen. And the thing about it, every 
one of those people pay.
    Senator Bennet. By which you mean Export-Import Bank does 
not lose money on these transactions.
    Mr. Ickert. That is correct.
    Senator Bennet. Yes. At Sandhill Scientific, also in 
Denver, and Leitner-Poma in Grand Junction, I heard the same 
thing everywhere I went, and these people are not thinking 
about themselves as Democrats or Republicans. They are just 
small business people that are trying to create markets for 
their products, and I think, Mr. Chairman, what we need to do 
is reauthorize this bill and move on to the other work that has 
to get done.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I know we have a 
vote coming up. I will try to be brief. I also want to thank 
you and the Ranking Member for your leadership on this.
    The difficulty about going last, especially after my friend 
Senator Bennet, he kind of expressed my concerns. People around 
the country have got to be scratching their heads saying, ``Why 
can't you all get your act together and do this?'' This is not 
Democrat/Republican. This is common sense. This notion that we 
would unilaterally disarm while other countries around the 
world are actually increasing their export financing system is 
just kind of beyond the pale.
    You know, one of the things--and we have talked, and I want 
to echo what Senator Menendez says about the importance on the 
small business side. I have a lot of respect for what 
machinists are doing, Boeing is doing, but if we are going to 
stay competitive in the world, we have got to make sure that 
small and mid-sized business moves into this export market. 
Ninety-five percent of all the new customers for American 
business are going to be customers abroad. We have been blessed 
with a mature market, but the future lies in export. And the 
notion that we would make it more difficult for you all to do 
that kind of work--and let us face it. For the most part, small 
and mid-sized businesses have not had those skills until 
recently. We need to be doing more beyond just, you know, 
export financing. We need to make it easier in terms of the 
single one-stop for small businesses to figure out how to do 
this. I think the legislation that you all have put together 
that actually increases the authorization from $100 billion to 
$140 billion is a step in the right direction.
    Again, echoing what Mr. Patton said, there is no other 
country around the world that is disarming. They are 
increasing. I like to cite--I know Senator Bennet has got a lot 
of companies in the solar field. At the beginning of this 
decade, we had, I think, 8 out of the 10 top solar companies in 
the world. In 2006, there were only two solar companies in the 
top 10 in China. Now 6 out of the top 10 are Chinese in solar, 
just this one field. China is spending on export control out of 
the China Development Bank $35 billion in grants in that field. 
We are down to $4 billion, and $16 billion in loan guarantees.
    You know, here was an area we had the intellectual capital 
and the intellectual property. And the Chinese are not doing it 
better. They are just financing it better. This is, again--and 
I am going to get to a question, but, you know, this just, 
again, seems to me to be a no-brainer, and we need to do it.
    I would simply add a couple of points, I think echoing what 
Senator Moran said. We have to be careful about that word 
``reform.'' But there are things in this bill that I think move 
forward a little bit. We put a requirement for a 5-year 
strategic plan in place where they have got to have metrics 
because the Bank at times has not always been very good at 
providing the metrics we need and the public needs. I think 
maybe this debate would be easier if we had some goals we could 
show. I think we need to put in place an upgrade of the 
technology system which has been kind of old and antiquated.
    Mr. Buffenbarger, I agree with your concerns about American 
jobs, but the one thing that I would--and I have to acknowledge 
I was one of the folks urging that we look at the domestic 
content on the medium- and longer-term components. And I know 
you disagree with this, but the question I simply say is we 
need to look at what we can do that is going to increase the 
number of American jobs. And the challenge we have got right 
now is with the way--back to Mr. Patton's comments about the 
number of suppliers that you have in terms of that content. I 
have had American companies in my State that have had--because 
they have had to try to go find additional foreign suppliers 
because it was easier to qualify for foreign support than it 
was for American support, and we were losing American jobs. So 
at the end of the day, it ought to be about, yes, domestic 
content, but it ought to be about the number of American jobs 
created. And all we are saying is we ought to not be afraid to 
look at the facts. No one should be afraid of the data. At the 
end of the day, I would concur, we need to increase American 
jobs, and I would be happy to have you respond to that. But 
this is a tool that we ought to have in our arsenal. It is not 
going to solve all our problems. I support the Chairman and the 
Ranking Member's efforts on this, and let us get it done, but I 
will give you the chance to respond with my 25 seconds 
remaining.
    Mr. Buffenbarger. Thank you, Senator. Your comments about 
what the American public thinks about all of this, I think the 
polls are quite conclusive. The American public believes in 
American jobs and that the duty of Congress is to establish 
some sort of policy and practice that encourages American jobs, 
thus domestic content. And if we are going to use the taxpayer 
dollar to support the efforts of the Ex-Im, it ought to be used 
to have products made here. That may lead us to another 
discussion on something called an industrial policy, and I know 
in the halls of Congress that is just an abhorrent thought. But 
every country that kicks our relative tail ends practices an 
industrial policy except the United States, and here we are 
having a debate today in our Congress about financing what is 
left here, enabling it to sell its products overseas.
    Senator Warner. And all I would say, sir, is I concur with 
you. The criteria ought to be American jobs, and the challenge, 
perhaps not so much on aircraft but particularly in certain 
other areas, is because of the supply chain component of so 
many different components going into that supply chain. We 
might, very worthy policy, may be actually undermining American 
jobs, particularly in small and mid-sized businesses. I do not 
think it is the case on the aviation side, but I would imagine 
Mr. Patton would say that--do you want to comment on that, Mr. 
Patton? Again, I know my time has expired, Mr. Chairman.
    Mr. Patton. Well, through the 1980s and 1990s, large 
portions of the electronics industry moved overseas, and along 
with it large portions of the supply chain and large portions 
of the know-how in some of the fundamental electronic 
components. So it is very difficult to find domestic sources 
for some of those devices.
    Senator Warner. We ought to have American jobs as a goal.
    Thank you, Mr. Chairman, and I thank you and the Ranking 
Member for your leadership.
    Chairman Johnson. I would like to thank our witnesses for 
their testimony today. As the expiration date for the Export-
Import Bank approaches, I hope we can work together to 
reauthorize the Bank.
    This hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]
    [Prepared statements and additional material supplied for 
the record follow:]
                PREPARED STATEMENT OF SENATOR JON TESTER
    Mr. Chairman, thank you for calling this hearing today.
    I have been a strong proponent of Export-Import Bank 
reauthorization and would like to see this bill passed as soon as 
possible so that small businesses, like those represented here today 
and those in Montana can continue to access the Bank's financing 
products.
    In Fiscal Year 2011, Ex-Im provided a record $6 billion in 
financing to small businesses, an achievement we should all be proud 
of. The Montana Chamber of Commerce tells me that Ex-Im has supported 
$4.2 million in export sales by Montana companies in the last 5 years. 
It is no wonder that the Montana Chamber strongly supports the 
reauthorization of the Bank.
    Two-thousand-eleven (2011) also marked an important step for the 
Export-Import Bank in Montana, with the designation of Bank of Montana 
as Montana's only authorized Master Guarantee Agreement Lender, 
facilitating even greater opportunities for direct financing of exports 
by small businesses in Montana.
    We can and should reauthorize the Bank's charter before it expires 
at the end of May. I am disappointed we were unable to put aside 
partisan politics earlier this year to reauthorize and improve this 
important institution. However, given the number of jobs at stake in 
this economy, we need to try again.
    A long-term extension will also provide additional predictability 
and stability for small businesses in the United States and abroad who 
seek to use the Bank's products. Short-term extensions will only create 
additional uncertainty and prevent small businesses from being able to 
close deals.
    In reauthorizing the Bank's charter, we must also ensure that we 
hold the Ex-Im Bank to the highest standards of transparency and 
accountability. I believe that the Committee's reauthorization adds a 
number of important provisions that will improve transparency at the 
Bank, including requirements to provide notice and detail to Congress 
and the public before and after the approval of large transactions, 
including aviation-related transactions.
    Finally, Congress and this Committee must continue to maintain 
their oversight role to hold the Bank accountable for these new 
transparency and accountability requirements and encourage the Bank to 
continue improve its record in these areas by going above and beyond 
these measures. Transparency is a critical part of our Government, and 
the Ex-Im Bank should be no exception.
    Mr. Chairman, I appreciate you holding this hearing today and your 
and Ranking Member Shelby's leadership on this important issue. I look 
forward to working with you to address outstanding concerns regarding 
this legislation and passing a long-term extension before the program 
expires at the end of May.
                                 ______
                                 
            PREPARED STATEMENT OF SENATOR MICHAEL F. BENNET

    Mr. Chairman. Thank you for holding this important and timely 
hearing.
    During the recess, while I was in Colorado, I had an opportunity to 
visit innovative businesses like Coolerado, which creates energy 
efficient air conditioners, Sandhill Scientific, which manufactures 
medical devices, and Leitner-Poma, which builds custom gondolas. All of 
these companies rely on financing options from the Export-Import Bank 
to compete in the international marketplace.
    As we emerge from the worst recession since the Great Depression, 
we should be looking for more opportunities to support the next 
Coolerado, Sandhill Scientific, or Leitner-Poma.
    While GDP and productivity now exceed where they stood before the 
onset of the recession, millions of people are still looking for jobs. 
Just as troubling, median household income is about 7 percent less than 
where it was in the late 1990s.
    Given this backdrop, we should be looking for ways to increase 
exports and support domestic manufacturing.
    The Export-Import Bank is an important part of this equation.
    I hope that we will move promptly to extend the Bank's authority, 
which expires at the end of May. It's important to both our Nation's 
competitiveness and to Colorado jobs.
    I look forward to the testimony.
    Thank you Mr. Chairman.
                                 ______
                                 
                PREPARED STATEMENT OF SENATOR KAY HAGAN

    Thank you Mr. Chairman. I wanted to speak briefly about the 
importance of reauthorizing the Export-Import Bank.
    The bipartisan legislation that we approved unanimously in October 
of last year would reauthorize the Export-Import Bank through 2015.
    It is fiscally responsible and bipartisan measure that will level 
the playing field for American exporters and will allow U.S. businesses 
to create jobs.
    If we do not act with urgency, the Ex-Im Bank will not be able to 
guarantee new loans starting May 31.
    Our economy is finally showing some hopeful signs of recovery and 
now is not the time to let partisanship tie the hands of our small 
business owners who are ready to expand their companies and export 
their products.
    In North Carolina, since 2007 the Ex-Im Bank supported over $1.8 
billion in export sales by 169 companies. One-hundred-sixteen of those 
North Carolina companies are small businesses--the backbone of our 
economy.
    I have convened two Global Access Forums in North Carolina, one in 
Charlotte and one in Greensboro, with Bank President and Chairman, Fred 
Hochberg.
    We had over 400 North Carolina small business owners attend the 
workshops to learn more about exporting. My four favorite words are 
``Made in North Carolina,'' and I have been proud to work with the Ex-
Im Bank to help get that label shipped all over the globe.
    Whether it is a small yarn company in Sanford, North Carolina, a 
furniture producer in Morganton, North Carolina or a turbine 
manufacturer in Charlotte, just to name a few--the Export-Import Bank 
is a lifeline for growth for thousands of businesses who are ready to 
expand, hire and export.
    In addition to being an engine for job growth, a reauthorization of 
the Export-Import Bank does not add to our deficit.
    In fact, it more than pays for itself. Since 2005, $3.7 billion has 
been sent to the U.S. Treasury by the Ex-Im Bank. And the nonpartisan 
Congressional Budget Office estimates that a reauthorization will 
reduce the deficit by $900 million over 5 years.
    Reauthorizing the Export-Import Bank is commonsense, it is 
bipartisan, it is fiscally responsible and it is necessary for 
continued job growth.
                                 ______
                                 
                  PREPARED STATEMENT OF ROBERT PATTON
               President and CEO, Patton Electronics Co.
               on behalf of the U.S. Chamber of Commerce
                             April 17, 2012

        The U.S. Chamber of Commerce is the world's largest business 
        federation, representing the interests of more than three 
        million businesses of all sizes, sectors, and regions, as well 
        as State and local chambers and industry associations.

        More than 96 percent of the Chamber's members are small 
        businesses with 100 or fewer employees, 70 percent of which 
        have 10 or fewer employees. Yet, virtually all of the Nation's 
        largest companies are also active members. We are particularly 
        cognizant of the problems of smaller businesses, as well as 
        issues facing the business community at large.

        Besides representing a cross section of the American business 
        community in terms of number of employees, the Chamber 
        represents a wide management spectrum by type of business and 
        location. Each major classification of American business 
        manufacturing, retailing, services, construction, wholesaling, 
        and finance--is represented. Also, the Chamber has substantial 
        membership in all 50 States.

        The Chamber's international reach is substantial as well. It 
        believes that global interdependence provides an opportunity, 
        not a threat. In addition to the U.S. Chamber of Commerce's 115 
        American Chambers of Commerce abroad, an increasing number of 
        members are engaged in the export and import of both goods and 
        services and have ongoing investment activities. The Chamber 
        favors strengthened international competitiveness and opposes 
        artificial U.S. and foreign barriers to international business.

        Positions on national issues are developed by a cross section 
        of Chamber members serving on committees, subcommittees, and 
        task forces. More than 1,000 business people participate in 
        this process.

                                       * * *

    Chairman Johnson, Ranking Member Shelby, and distinguished Members 
of the Senate Committee on Banking, Housing and Urban Affairs, thank 
you for the honor of allowing me to testify in this hearing. My name is 
Robert Patton, and I am the President and CEO of Patton Electronics 
Co., based in Gaithersburg, Maryland. I am testifying today on behalf 
of the U.S. Chamber of Commerce, the world's largest business 
federation, representing the interests of more than three million 
businesses of all sizes, sectors, and regions, as well as State and 
local chambers and industry associations. Today, I would like to speak 
about the important benefits of an agency that helps small businesses 
tap foreign markets and create American jobs. This is the Export-Import 
Bank of the United States (Ex-Im).

Background on Patton Electronics Co.
    While still in college, my brother, Burt, and I started Patton 
Electronics Company with the goal of financing the rest of our college 
education. Within a few months, we convinced our older brother, Bruce, 
to help us with the manufacturing side of the business. Bruce brought 
experience and expertise in production, planning, and general 
management.
    We utilized our father as our venture capitalist. From his 
investment of a gift of $5,000 to each of us, the use of his basement, 
his wisdom, and some of his connections, we developed our small direct-
mail data communications products company. As we evolved, more and more 
funding was required. By our third year, Dad generously put his total 
retirement at stake--but came to help lead the company as CEO for the 
next 15 years.
    Under my father's direction, we developed a wide range of products. 
I took responsibility for product development, Burt ran sales and 
marketing, and Bruce took responsibility for accounting and operations.
    Over the intervening years we have built a tremendous team and have 
continued to grow. The company now has sales in over 120 countries and 
generates about 70 percent of its revenue outside the United States 
through a network of over 200 Channel Partners.
    Our best selling products are Voice over the Internet (VoIP) 
products, mobile video surveillance products, and a wide range of 
network access devices. We now occupy a 50,000 square foot 
manufacturing facility in Gaithersburg where we have more than 100 
employees working in sales, marketing, manufacturing and engineering.

The Case for the Export-Import Bank
    Trade finance has been around for centuries. It's one of the safest 
kinds of finance because the goods sold serve as collateral, and the 
buyer, the seller, and the price have already been set.
    The vast majority of trade finance is provided by commercial banks, 
but Ex-Im still has an important role to play covering gaps in 
financing for U.S. exports where commercial-bank financing is 
unavailable or faces competition from foreign export credit agencies. 
Last year, Ex-Im supported export sales that in turn sustained nearly 
300,000 U.S. jobs at 3,600 companies.
    However, Ex-Im's temporary reauthorization will expire on May 31, 
and failure to reauthorize its operations and raise its lending cap to 
an internationally competitive level would seriously disadvantage U.S. 
companies--like mine--in foreign markets, potentially resulting in the 
loss of thousands of U.S. jobs.
    Ex-Im is especially important to small- and medium-sized 
businesses, which account for more than 97 percent of the quarter 
million U.S. companies that export. Appropriately, more than 87 percent 
of Ex-Im's transactions involve small or medium-sized firms. Tens of 
thousands of smaller companies that supply goods and services to large 
exporters also benefit from Ex-Im's activities. In FY 2011, Ex-Im 
provided more than $6 billion in financing and insurance for U.S. small 
businesses--an increase of nearly 90 percent since FY 2008. Ex-Im has 
set the goal of providing $9 billion in annual small-business export 
financing and adding 5,000 new small businesses to its portfolio by 
2015.
    As the President of a small company, I can tell you first-hand 
about the important role Ex-Im plays. The working capital that I have 
to operate my business is proportional to the revenue that I am 
generating. The money my customers owe me serves as collateral for 
loans I need to pay my employees, my suppliers, and even my taxes until 
I get paid by my customers. Since more than 70 percent of my revenue is 
coming from exports, about 70 percent of my line of credit with the 
bank is backed by Ex-Im. The Ex-Im Bank enables us to export to many 
markets as it provides loan guarantees and insurance on our 
receivables. Those loan guarantees allow my international receipts to 
be used as collateral the same way my domestic receipts are used.
    As our business grew through the 1990s, the Internet gave us 
exposure to overseas customers. We began to sell to them little by 
little. As exports began to comprise a measurable portion of my 
revenue, my bank began to take notice. Our local bank didn't want to 
lend against those international receivables the way they lend against 
domestic receivables. We could not afford to take orders from 
international customers in significant volumes, and in most cases we 
would require the buyer to pay in advance. This put us at a severe 
disadvantage over local suppliers and international vendors who had the 
backing of their national export credit agencies.
    In 2000, a competing bank introduced us to Ex-Im's working capital 
line of credit. Under this new relationship, I received a guarantee 
from Ex-Im, which made my bank willing to loan up to 90 percent of my 
overseas receivables as working capital!
    Our business grew by about 40 percent the following year and has 
continued to grow for the last 13 years. From 1999 to 2000 (when we 
added the Ex-Im line of credit), we were able to hire more than 40 new 
employees due to the boost in exports that happened through the use of 
the Ex-Im Bank. A few years later, we were able to close a single order 
in excess of $3 million, adding more than 10 percent to our revenue 
using the Ex-Im Buyer Financing products.
    By having our revenue spread across different markets, we have 
distributed our risks such that our business is not as prone to the 
economic ups and downs of one market or any particular competitor or 
even a few local customers. The global economic ebbs and flows have 
offset each other over the years, allowing us to sustain jobs during 
the slow times in the United States and grow employment as emerging 
markets expand.
    Even as it helps U.S. companies large and small, Ex-Im also has a 
proven record of success. Far from being a burden on the taxpayer or a 
subsidy for corporations, Ex-Im Bank is a net revenue generator for the 
Treasury. Fees charged by Ex-Im generated $700 million in revenue for 
the U.S. Treasury in FY 2011 and $3.4 billion in FY 2006-FY 2010. As 
Congress tackles trillion dollar deficits as far as the eye can see, 
refusing to reauthorize Ex-Im will actually add to those deficits.
    Ex-Im lending exposes the taxpayer to very little risk. Borrowers 
have defaulted on less than 2 percent of all loans backed by Ex-Im 
since its inception in 1934, a default rate lower than commercial 
banks.
    Perhaps the most compelling argument in favor of Ex-Im's 
reauthorization is that failure to approve it would amount to 
unilateral disarmament in the face of other nations' aggressive trade 
finance programs. Look at the competition. Though it has an economy 
one-tenth the size of the United States, Canada supports an export 
credit agency that has extended nearly three times as much export 
financing as Ex-Im--and it does so on terms that are often more 
generous and easy to use. China has three export credit agencies that 
last year provided $300 billion in export finance to its exporters--10 
times as much as Ex-Im Bank did.
    With other countries' export credit agencies providing an estimated 
$1 trillion in export finance--often on terms more generous than Ex-Im 
can provide--failure to approve this reauthorization legislation will 
put U.S. exporters at a sharp competitive disadvantage. The fact that 
Congress has so far declined to approve a long-term reauthorization has 
become a selling point for foreign competitors to U.S. firms, who point 
to their own generous financing capabilities.
    To give another real world example--this time from a large 
company--GE recently sold four turbines in Tanzania with Ex-Im Bank 
support in a deal worth $125 million. A single one of these turbines 
can be turned into a complete power plant to provide 200MW worth of 
power. GE found that private sector financing could not match the 
competing offer supported by Britain's export credit agency--only Ex-Im 
Bank was able to match that offer and allow GE to make the sale.
    If there is no reauthorization, the results could be catastrophic 
for our business. I don't know how our bank will react; certainly I 
expect they will reduce our borrowing and demand payment of the 
difference. That payback would come at the expense of employment. If 
they cut the collateral value in half, I'd be cutting more than 20 
jobs. If they discount our international revenues as collateral 
altogether, I will be forced to terminate as many as 70 people. With 
that kind of cut, I would not be able to sustain engineering and 
manufacturing operations and may be forced to out-source--obtaining 
products from overseas rather than selling our own.

Global Access for Small Business
    At the beginning of 2011, the Ex-Im Bank announced its Global 
Access for Small Business (Global Access) initiative, which aims to 
help more than 5,000 small companies export goods and services produced 
by U.S. workers. The Global Access initiative is a key component of Ex-
Im's work supporting the National Export Initiative (NEI) and its goal 
of doubling U.S. exports by 2014.
    To reach these benchmarks, the Bank is offering new credit and 
insurance products as well as streamlining product delivery. In 
addition, extensive outreach to educate companies about export 
assistance resources is being conducted throughout the country. The 
U.S. Chamber is one of several organizations partnering with Ex-Im to 
organize outreach forums across the country, directly inform small 
businesses about export opportunities, and highlight companies that 
have increased sales, profits, and jobs through exports. Over 20 Global 
Access forums were held nationwide last year and more than 3,000 small 
companies have been engaged to date.
    Outreach like this is critical to small businesses. In the 1990s 
most banks in my region did not have a relationship with Ex-Im. Now, 
most banks in our region do offer Ex-Im Bank facilities, providing me 
with good choices between banks based on other services. These outreach 
forums ensure that every potential exporter across in the country has 
access to the same kinds of tools currently available to me and also to 
their international competitors through comparable programs in other 
countries. Without Ex-Im, U.S. exporters are at a severe disadvantage 
in a global marketplace that often doesn't present a level playing 
field.
    In addition to the Ex-Im Bank's increased outreach to small 
businesses, there are other efforts the Ex-Im Bank could take that 
would further boost small business exports. Ex-Im sometimes has 
difficulty scaling the paperwork to the size of the company, the size 
of the deal and the relative risks. Most banks already have the credit 
information of the small business. Separate paperwork for Ex-Im could 
be greatly reduced or eliminated by relying on the internal bank credit 
documents or having delegated authority for smaller banks at smaller 
amounts.
    For buyer financing opportunities, often the deals are smaller than 
the big businesses bring. Smaller deals usually take less time to 
close, which requires an expedited process to be competitive. Providing 
online applications for foreign buyers that can be linked from U.S. 
producer Web sites is one way to streamline the paperwork. In general, 
Ex-Im should be encouraged to think simpler and smaller in order to 
engage more small businesses. Small businesses ready for exporting are 
generally financially stable; I am not suggesting Ex-Im enable 
unwarranted credit facilities inconsistent with the business size and 
risks.

                                       * * *

    The bottom line is simple: If America fails to look abroad, our 
workers and businesses will miss out on huge opportunities. Our 
standard of living and our standing in the world will suffer. With so 
many Americans out of work, opening markets abroad to the products of 
American workers, farmers, and companies is a higher priority than ever 
before.
    Ex-Im is a vital tool for translating those export opportunities 
into American jobs. As president of a company, I truly understand the 
importance of international trade and the impact it can have on small 
business. It's simple: we want to ship to more countries, grow our 
client base, and create more jobs. Ex-Im helps me do this.
    Ex-Im's critics say it picks winners and losers. It doesn't. Ex-Im 
finances all transactions that meet their criteria. However, if 
Congress fails to reauthorize Ex-Im, it's picking foreign companies as 
winners and American companies as losers. I respectfully urge Congress 
to move swiftly to reauthorization the Export-Import Bank. Thank you 
for the opportunity to testify.
                                 ______
                                 
                PREPARED STATEMENT OF SONYA KOSTADINOVA
             President and CEO, Transcon Trading Co., Inc.
         on behalf of the Small Business Exporters Association
                             April 17, 2012

    Chairman Johnson, Ranking Member Shelby and Members of the 
Committee, thank you for the opportunity to testify on the 
reauthorization of the Export-Import Bank of the United States (Ex-Im). 
My name is Sonya Kostadinova and I am the owner, president and CEO of 
Transcon Trading Co., Inc, located in Columbia, South Carolina. It is 
my pleasure to testify before you today on why the reauthorization of 
Ex-Im is critical to small businesses such as mine. I am also here in 
my capacity as a board member for the Small Business Exporters 
Association (SBEA), the Nation's oldest and largest small- and medium-
size exporter (SME) association, which is a council of the National 
Small Business Association.
    U.S. Small Business Administration (SBA) data shows that 
approximately 70 percent of all U.S. exporters have 20 or fewer 
employees. Transcon Trading Co., Inc. is one of these companies. Our 
mission is to help other small- and medium-size companies, namely U.S. 
manufacturers, to create brand awareness overseas and establish or 
increase existing exports by providing value added services in all 
facets of exporting.
    Transcon is an export management company (EMC) that has been in 
business since 1979. We represent internationally approximately 80 U.S. 
small- and medium-size manufacturers from several different 
industries--consumer personal care and health care products, pet food 
and pet care products, equine health care products and other specialty 
products--and build distribution networks for them overseas. 
Essentially, we perform the functions of an export department for those 
U.S. manufacturers that are too small to afford or do not have the 
expertise to establish their own in-house export department, or opt to 
tap into our already established distribution network overseas.
    The United States is a world leader in most of the industries in 
which we operate and has a great deal to offer to the world marketplace 
in terms of the highest quality standards and latest technological 
innovations implemented in their products. Many of the breakthroughs 
come from very small businesses, including startups, some of which can 
become a favorite, leading brand in international markets before the 
U.S. marketplace even hears about them--made in the USA still carries a 
lot of cache around the world. Yet export financing, or lack thereof, 
continues to hold back many U.S. manufacturers. Just as smaller 
companies in the United States represent our best bet for new exports, 
so also do smaller companies overseas represent our best bet for new 
buyers of American products and services.
    Exporting is not easy. Many people have an incorrect assumption of 
exporting, associating it with the logistics only of an export 
transaction. The logistics are indeed a very important part of it, but 
there are a whole host of other business generating activities that 
have to do with identifying the right importers/distributors in other 
countries. Among those ``other'' tasks exporters must handle--and which 
we take care of for our clients--are: negotiating and signing 
distribution agreements; building relationships with the clients; 
marketing and advertising their products in the foreign countries; 
assisting in foreign country product registrations where necessary; 
preparing the entire export documentation package to aid customs 
clearance; and assuming title of the goods and therefore the fiscal 
responsibility that comes with it.
    My company, Transcon takes care of all this, we pay the 
manufacturers as soon as the goods leave their warehouse, and at the 
same time extend credit terms to qualified international buyers as part 
of an attractive export services package. These difficult tasks which 
we handle enable us to expand our business as well as that of many U.S. 
manufacturers.
    And this is where Ex-Im comes to play an instrumental role for us 
by insuring our foreign receivables. We have a Multi-Buyer Export 
Credit Insurance Policy with Ex-Im including Discretionary Buyer Credit 
Limit (DCL) and Special Buyer Credit Limit (SBCL). Although Transcon 
has utilized Ex-Im programs since 1993, my personal, close observation 
and participation in this process dates back to the early 2000s.
    Between 2003 and 2008--before the severity of the global recession 
hit-we had almost doubled our exports in large part due to Ex-Im's 
credit insurance of our foreign receivables. Over the last 20 years, 
Ex-Im Bank has been a strong driving force behind our growth in 
exports. In our experience, offering credit term facility to foreign 
buyers can significantly increase any company's negotiating power, 
resulting in 40-60 percent increases in export sales.
    One of the reasons why many U.S. manufacturers lose business to 
foreign competitors is the fact that they are afraid to sell on open 
account, i.e., to assume the financial risk of offering credit terms to 
foreign buyers. Receivables' insurance is not as popular in the United 
States as it is in Europe, for example: per 2008 data, Western Europe 
utilizes 83 percent of the global credit insurance market (Germany/26 
percent, France/18 percent, U.K./18 percent. The rest of the world only 
uses 17 percent (of which North America uses only 6 percent). There are 
a number of good geographical and historical reasons for that 
diminutive number but the fact remains that U.S. private banks don't 
typically offer credit risk insurance. There are some exceptions but 
most of us are too small to qualify. Even if we did, it would be cost 
prohibitive and therefore not worthwhile going through the process.
    This leaves small businesses like mine with very limited options 
outside Ex-Im Bank.
    Confident of its important role, we have promoted Ex-Im's services 
to as many companies as possible throughout the years. As an adjunct 
professor of exporting at the number-one international business program 
in the country at the Moore School of Business at the University of 
South Carolina, I designate a special session in my class on Ex-Im and 
its role in credit financing of export transactions. I want the young 
entrepreneurs in my class--many of whom start their export companies 
during the semester as a class project--to know that they are not alone 
and if no private banking institution steps up to provide export 
financing, Ex-Im can. There are many companies in this country that 
either are not familiar with Ex-Im or only have a limited knowledge of 
Ex-Im and their services. Therefore, my class is just one resource to 
increase the outreach and word of Ex-Im to future small businesses. In 
my opinion there are many U.S. small businesses that could be exporters 
except for the fact that they do not know where to turn and/or the 
existence and services of Ex-Im.
    In fact, according to a past survey by SBEA and NSBA, 56 percent of 
small businesses surveyed by said concerns over getting paid and cost 
are the main barriers to exporting. Forty-three percent of small 
businesses said they would be interested in exporting if some of their 
concerns were addressed. Ex-Im clearly has the potential to help many 
small businesses begin or expand exporting operations which would, 
without question, bolster the U.S. economy.
    In 2011 Transcon registered exports to about 80 countries. In 
addition to representing other manufacturers' brands overseas, we have 
our own branded pet grooming line that has enjoyed loyal, international 
customers for a couple of decades now. Ex-Im Bank has been a strong 
driving force behind our growth in exports.
    Getting export credit financing and insurance is a very difficult, 
expensive and cumbersome process--and oftentimes not possible at all--
for a small business, if done through private sector banking 
institutions. Ex-Im Bank provided that supporting arm to us and helped 
us double our exports. It is unthinkable for us to not only continue 
this export expansion, but also to even continue to exist as an EMC 
without the support of Ex-Im Bank. Without it, we would lose most of 
our open account buyers to European competitors who receive massive 
amounts of support in export financing and foreign receivables 
insurance from their own export credit agencies.
    During the global recession, we witnessed incredible proliferation 
of protectionism around the world. Signing free trade agreements alone 
is not enough anymore to protect the U.S. manufacturers' right to fair 
trade. Many governments enforced impossible regulatory restrictions in 
the form of country specific registration and importation requirements, 
which effectively become nontrade barriers to entry. While it would 
take the United States a longer term effort involving negotiations at 
the highest level with many governments to bring some much needed 
balance to that process, Ex-Im Bank's reauthorization can be an act 
taken domestically that would have equal, if not bigger, importance and 
impact on our ability to export.
    We could swallow the losses in one country, due to overly 
burdensome regulatory requirements, and refocus and redirect our 
efforts to those other countries that still allow fairer and equitable 
trade practices, but without the export credit financing and foreign 
receivables insurance, it is unlikely that we will succeed to 
outperform our foreign competitors. We would lose the battle in the 
very initial stage of negotiations as one of the first questions asked 
by interested foreign buyers is ``Do you offer credit terms?''
    In addition, we found out the hard way that many U.S. private banks 
would not even extend operating credit to us as they do not accept 
foreign receivables as collateral, only domestic receivables and 
inventory/equipment. Having our receivables 95 percent covered by the 
Ex-Im Bank Insurance Policy has allowed us to leverage them along with 
the inventory and have our credit line approved. For many small 
businesses, this positive side effect is equivalent to a life line 
support that allows export expansion. As we all know, growth is usually 
painfully associated with cash-flow struggle/problems.
    U.S. Department of Commerce 2008 data shows that 1 out of 20 or 6 
million jobs in America depend on manufactured exports. Export related 
jobs pay an estimated 13 to 18 percent more than the U.S. national 
average. Unfortunately, the United States is underperforming: less than 
1 percent of America's 30 million companies export. Of those that 
export, 58 percent export to only one country. In my home State of 
South Carolina, export-supported jobs linked to manufacturing account 
for an estimated 9.2 percent (the fifth highest share among the 50 
States) of South Carolina's total private-sector employment. Well over 
one-fourth (28.9 percent) of all manufacturing workers in South 
Carolina depend on exports for their jobs, the second highest among the 
50 States.
    Small businesses are a critical component of the U.S. economy, with 
27.5 million businesses employing half of the private U.S. workforce. 
Many of these small businesses rely on exporting to increase their 
sales, grow their business and create new jobs. With 95 percent of the 
purchasing market outside of the United States, small businesses 
understand the importance of opening new markets and competing in the 
global marketplace. In fact, 97 percent of identified U.S. exporters 
are small businesses, yet that represents only a fraction of those who 
could compete abroad.
    Small businesses rely on exports to increase their sales, 
strengthen their long-term viability and create new jobs. U.S. exports 
in 2010 supported nearly 10 million jobs, including an estimated four 
million for small businesses. Total U.S. exports in goods and services 
reached $1.8 trillion in 2010, nearly 12 percent of U.S. gross domestic 
product. A U.S. International Trade Commission's report showed 
exporting small businesses averaged 37 percent revenue growth from 2005 
to 2009; compared to a decline of 7 percent for non-exporting small 
businesses. One billion dollars in U.S. exports creates 6,000 new jobs.
    Over the next 4 years, the demand for U.S. products and services 
will likely grow dramatically. Ex-Im Bank's role as ``lender of last 
resort'' will, in the coming years, be even more critical to leveling 
the playing field for small U.S. exporters. In fact, for smaller 
companies, Ex-Im is not the bank of last resort. It is the bank of only 
resort.
    Our expansion results in direct job creation not only for Transcon 
and South Carolina, but also for many other States in the country as 
the manufacturers we represent are located all over the United States. 
We have had about $50,000,000 worth of foreign receivables insured by 
Ex-Im for which we paid a premium of $364,000; this shows well below 1 
percent cost associated with the insurance premium. Private sector 
premiums would be a lot higher than that and therefore unaffordable by 
small businesses.
    Since 2006 we have had only one claim (filed in 2008) and it was 
for less than $2,500. We have had zero claims since then.
    Ex-Im's export credit insurance has given us peace of mind and 
allowed mitigation against both commercial and political risks and made 
our foreign receivables eligible for financing. During the economic 
crisis, Ex-Im Bank did not cancel or reduce coverage on buyers when 
most (with very few exceptions) of the private sector insurance did, 
which caused a major problem. When the private insurance companies 
canceled coverage that caused the banks' lending against those formerly 
insured foreign accounts receivables to stop lending.
    As our prominence overseas has grown, we now have buyers who could 
use Ex-Im Bank's project financing and credit guarantee facility 
program. Positioned to move to bigger projects, Transcon was stepping 
up the intention of using Ex-Im Bank's lending capabilities more 
actively. Now we have been forced to put all of these projects on hold 
due to the ongoing instability created by Congress' failure to enact a 
long-term reauthorization.
    We need Congress' understanding and swift action NOW to reauthorize 
the Ex-Im Bank for 4 years with a $140 billion lending cap. With the 
current extension set to expire at the end of May 2012, Congress must 
act soon; otherwise exporters could see their lender of last resort 
falter as it waits for a new reauthorization. This uncertainty could 
have a devastating effect on my and many other small businesses' 
ability to follow through on sales even though there are buyers who 
want our products.
    Short-term extensions, as we have seen, will have a paralyzing 
effect on many of Transcon's ongoing projects. It would hamper our 
ability to plan, and would provide a wide-open door to our 
international competitors. We cannot afford to invest time and 
resources to build relationships overseas and negotiate with foreign 
buyers, only to find out in the end that one of our strongest 
negotiating points--Ex-Im Bank's services--are obsolete. Not only would 
we most certainly lose the opportunity to do business with these 
foreign buyers, but we would have wasted all of our initial investment 
in the deal.
    Reauthorizing Ex-Im sends a message to the world that the United 
States remains fully engaged as an exporting Nation. That is a vital 
message as Ex-Im Bank remains a catalyst for the expansion of small-
business exports while continuing to support businesses confronting 
aggressive foreign competition. By contrast, failing to act now on the 
reauthorization, and handing off the issue to the next Congress, would 
send an unfortunate signal that exporting is much less of a priority 
for our country.
    In the past, such hesitation on the part of Congress has led to 
situations where companies from competitor nations have raised doubts 
with the foreign buyers of U.S. products about whether trade financing 
from the United States would continue to be available. And that has led 
to sales cancellations.
    For us smaller companies in international trade, moving forward 
with a 4-year reauthorization with an increase in its lending cap is 
crucial. Congress has wisely taken this opportunity to make a number of 
long-sought improvements in the Bank's handling of its small-business 
customers--setting a record in FY 2011 by supporting $6 billion in 
financing and insurance for U.S. small businesses--an increase of 
nearly 90 percent since FY 2008. Ex-Im Bank has a goal of providing $9 
billion in annual small-business export financing and adding 5,000 new 
small businesses to its portfolio by 2015. This hefty goal will attract 
more small businesses to exporting, reduce trade deficits and enlarge 
the Main Street constituency for international trade. These very 
desirable benefits ought not to wait many months for a new Congress to 
act, particularly when the House and Senate were able to reach a 
compromise earlier last year.
    Thank you once again for allowing me to share our experiences and 
our fears with you. We put our faith in you and I urge you to see Ex-Im 
Bank for what it is, an agency that produces results and doesn't cost 
taxpayers a dime--not, as some would have you believe, a burden on U.S. 
taxpayers. In order to continue to grow U.S. exports, the U.S. economy, 
and U.S. jobs, I urge you to reauthorize Ex-Im Bank as soon as 
possible.
                                 ______
                                 
                   PREPARED STATEMENT OF DAVID ICKERT
              Vice President of Finance, Air Tractor, Inc.
         on behalf of the National Association of Manufacturers
                             April 17, 2012

    Chairman Johnson, Ranking Member Shelby and Members of the 
Committee, thank you for the opportunity to testify on the 
reauthorization of the Export-Import Bank of the United States (Ex-Im). 
My name is David Ickert, and I am the vice president of finance at Air 
Tractor, Inc. of Olney, Texas.
    It is my pleasure to submit the following testimony on behalf of 
the National Association of Manufacturers (NAM) to the Committee on 
Banking, Housing and Urban Affairs for the hearing entitled, ``Export-
Import Bank Reauthorization: Saving American Jobs and Supporting 
American Exporters.'' Air Tractor and the NAM welcome this hearing on 
the implications of ExIm Bank reauthorization. I appreciate the 
opportunity to highlight the importance of broadening opportunities for 
U.S. manufacturers overseas by bolstering Ex-Im Bank.
    As you know, I had the opportunity to testify on June 30, 2011, 
before the Subcommittee on Security and International Trade and 
Finance. That hearing was entitled, ``Stakeholder Perspectives on 
Reauthorization of the Export-Import Bank of the United States.'' In 
that testimony, I addressed the history of Air Tractor with Ex-Im and 
the benefits that Air Tractor, our employees and our community have 
accrued.
    I will provide a brief summary and update of that testimony below. 
These comments will provide you with insight into Air Tractor and the 
extent of Ex-Im's support for American workers and exporters. Since my 
testimony before the Subcommittee, there has been no reauthorization of 
Ex-Im, and the current authorization is scheduled to expire on May 31, 
2012. Furthermore, the lending cap has not been increased. As such, I 
will reflect on what impact the failure to reauthorize the Export-
Import Bank in a timely manner--with an increase in the lending cap--
will have on Air Tractor's employees.
    Air Tractor is a small manufacturer engaged in the production of 
agricultural airplanes and firefighting airplanes. The company has been 
manufacturing planes since 1972 and is now 100-percent employee owned. 
We have one location--Olney, Texas. Olney is a small rural town located 
100 miles west of Fort Worth, Texas and 200 miles east of Lubbock, 
Texas. The population of Olney is approximately 3,000 people. Air 
Tractor currently employs 270 people.
    Air Tractor is also a member of the NAM. The NAM is the Nation's 
largest industrial trade association, representing small and large 
manufacturers in every industrial sector and in all 50 States. Its 
membership includes both large multinational corporations with 
operations in many foreign countries, and small and medium-sized 
manufacturers that engage in international trade. The manufacturing 
sector employs nearly 12 million Americans and is the engine that 
drives the U.S. economy by creating jobs, opportunity and prosperity. 
Exports are vital to the success of American manufacturing, as they 
constitute 20 percent of U.S. manufacturing production and have 
increased at a rapid clip in recent years. In fact, over the past 
decade, exports grew more than five times as fast as shipments to the 
domestic market--exports grew by 48 percent while domestic shipments 
grew by only 9 percent.
    Air Tractor began using Ex-Im in 1995. We utilized the Export-
Import Bank's medium-term credit insurance product then, and we have 
continued to use that product throughout the years. We use that product 
in our current transactions.
    We believe that the Export-Import Bank is essential to exports of 
U.S. products. For instance, in FY 2011, Ex-Im was involved with 3,751 
transactions that supported nearly $42 billion in exports from more 
than 3,600 U.S. companies. Of those transactions, 3,247--87 percent--
were with small-business exporters. All of those transactions added up 
to $6 billion in Ex-Im financing in FY 2011. The Ex-Im Bank pays for 
itself (through the fees it charges to foreign buyers) and--above and 
beyond that--returns money to the U.S. Treasury. From 2006 to 2010, Ex-
Im Bank returned $3.4 billion to the Treasury. Ex-Im is a net gain for 
the Federal Government and for the taxpayer. Furthermore, the Bank has 
maintained its incredibly low default rate (1.5 percent) through the 
recession and through several years of record growth.
    With the Export-Import Bank's medium-term credit insurance product, 
Air Tractor is able to extend credit to our customers in foreign 
countries for the purchase of our airplanes. The credit extension is 
done in the form of a promissory note payable from the customer to Air 
Tractor. The term of the note is usually 5 years, payable in 10 equal 
semi-annual installments, plus accrued interest. After underwriting and 
approving the credit of our customer, Ex-Im issues its medium-term 
credit insurance in favor of that customer. Once Air Tractor has the 
Export-Import Bank's medium-term credit insurance on the note, we then 
sell the note to our commercial bank and receive our cash. As a small 
business, we are unable to hold any significant amount of paper. Air 
Tractor is only able to convert paper to cash with the credit insurance 
of Ex-Im.
    When we first started using Ex-Im in 1995, exports were 
approximately 10 percent of sales. Through the use of Ex-Im's medium-
term credit insurance product, we have been able to grow and expand 
sales such that exports now comprise over 50 percent of our sales. The 
chart below illustrates these totals over the last 5 years.


------------------------------------------------------------------------
                      Air Tractor
       Year            Employment       Aircraft Sold   Percent Exported
------------------------------------------------------------------------
           2007                165                 58               36%
           2008                197                101               45%
           2009                204                101               49%
           2010                220                123               56%
           2011                267                137               50%
------------------------------------------------------------------------

There are some important issues to be highlighted from the description 
above:

  <bullet>  Ex-Im Bank products were used in countries where the local 
        banking structure would not support 5-year loans to our 
        customers to buy an aircraft.

  <bullet>  No U.S. bank would make a loan to our foreign customers for 
        the purchase of our aircraft.

  <bullet>  No U.S. bank would buy our purchase notes receivables from 
        Air Tractor without them being issued by Ex-Im.

  <bullet>  The sales represented by these insurance notes would not 
        have taken place without the described financing.

  <bullet>  Exports have increased our market footprint in the world 
        and have increased our total sales.

  <bullet>  The sales increase as a result of Ex-Im insurance notes has 
        created and sustained jobs.

  <bullet>  Job creation at Air Tractor in Olney, Texas, is the direct 
        result of being able to use Ex-Im's medium-term credit 
        insurance product to make export sales.

  <bullet>  The Ex-Im product has helped us facilitate export sales and 
        create jobs in Olney, Texas. Air Tractor strongly supports the 
        reauthorization of Ex-Im.

    If Ex-Im is not reauthorized by the May 31, 2012 expiration date, 
the impact could be devastating to Air Tractor (and many others 
companies here in the United States). Air Tractor's situation offers a 
very straightforward illustration of what could happen without 
reauthorization.
    For the calendar year 2012, Air Tractor has 175 aircraft scheduled 
for production. A great deal of time and planning is required in order 
to start the process and to put orders into our supply chain to meet 
this record production level. Of the 175 planes in our 2012 schedule, 
we have identified 44 that will require Ex-Im Bank medium-term credit 
insurance support. That is 25 percent of our 2012 production. Without 
Ex-Im support, most (if not all) of these 44 sales will go away. There 
is no alternative for us to use to make these sales. If the Export-
Import Bank is not reauthorized, 68 jobs at Air Tractor will be in 
jeopardy. Not only would these 68 employees be directly at risk, but 
other employees in small retail businesses along Main Street would also 
be at risk.
    Furthermore, American manufacturing jobs, such those in Olney, 
Texas, will be at risk if the lending cap for the Export-Import Bank is 
not increased. Currently, Ex-Im is close to its $100 billion lending 
cap. If the Bank reaches its lending cap, that is tantamount to 
shutting Ex-Im down. The devastating impact on Air Tractor, its 
employees and suppliers is the same whether the Export-Import Bank is 
not authorized or if it is authorized and the lending cap is not 
adequately increased.
    As I noted, Olney is a small rural town. Olney is probably not 
thought of as a community where significant exports originate. However, 
thanks to the products of Ex-Im, exports originate out of Olney, Texas, 
and jobs are created. This is a scenario that is common all over our 
Nation.
    As Air Tractor illustrates in Olney, Texas, without Ex-Im and 
without an adequate lending cap, jobs are endangered in communities 
throughout the United States. Ex-Im helps create and sustain jobs 
through exports. Ex-Im returns money to the U.S. Treasury.
    On behalf of the NAM, Air Tractor strongly supports and urges quick 
action on the part of Congress on a long-term reauthorization for Ex-Im 
with an adequate increase in the lending cap.
    In closing, thank you Chairman Johnson and Ranking Member Shelby 
for holding this hearing and for allowing me the opportunity to 
testify.
                                 ______
                                 
              PREPARED STATEMENT OF R. THOMAS BUFFENBARGER
                        International President
     International Association of Machinists and Aerospace Workers
                             April 17, 2012

    Thank you, Chairman Johnson, Ranking Member Shelby, and Members of 
this Committee for the opportunity to testify before you today on the 
vital importance of the Export-Import Bank to our industrial base and 
the creation and preservation of American manufacturing jobs. My name 
is Tom Buffenbarger and I serve as International President of the 
International Association of Machinists and Aerospace Workers, also 
known as the IAM. As a broadly diversified manufacturing union and the 
largest aerospace union in North America, representing over 700,000 
active and retired members, the IAM is particularly concerned about the 
need to fully reauthorize the Ex-Im Bank.
    While much of the Ex-Im Bank's focus relates to the sale of Boeing 
aircraft, we also represent workers at companies like Caterpillar, 
Pratt and Whitney, John Deere, General Electric, as well as numerous 
small- and medium-sized firms that export a variety of American made 
products crucial to our economic health. Given our members work with 
these exporting firms, we are uniquely positioned to share with you our 
strong belief that the Ex-Im Bank's reauthorization must be approved 
immediately. Indeed, the Ex-Im Bank is one of the few tools that we 
have to support exports that in turn contribute directly to American 
jobs. At a time when our fragile economy is still recovering and 
millions of manufacturing workers are still without work, we are 
baffled why the Ex-Im Bank's reauthorization and, consequently, its 
ability to fulfill its critical mission is being held up. This mission, 
however, cannot be fully accomplished if domestic content requirements 
are weaken as some have proposed. There is a clear link between 
American jobs and domestic content. We should look to strengthen, not 
weaken these vital provisions, otherwise the Ex-Im Bank will be 
engaging in corporate welfare that would incentivize the offshoring of 
American jobs.
    Global competition has never been more intense and the stakes for 
our economy have never been higher as U.S. firms and workers struggle 
to compete in today's global marketplace. Successful countries 
recognize the importance of a strong manufacturing sector and the true 
nature of global competition. These countries know that there is no 
such thing as a ``free market,'' and provide strong support for 
critical wealth and job creating industries like aerospace.
    The United States, unfortunately, has too often blindly embraced a 
free market ideology that has opened our domestic markets to foreign 
goods while offshoring the production of American created technologies 
and products, as well as millions of good paying jobs. We have 
repeatedly seen this with electronics, green technologies, and a host 
of consumer products. The result has been a gaping trade imbalance with 
the rest of the world. According to the U.S. Census Bureau, our trade 
imbalance grew by more that 10 percent in 2011 to over $558 billion. 
While there was a small positive balance in services, the deficit in 
goods increased by 14 percent to over $737 billion with the largest 
increase coming in our deficit with the People's Republic of China, a 
rapidly growing country that engages in a variety of unfair trade 
practices-illegal subsidies, forced technology transfer, currency 
manipulation, and an appalling lack of labor rights. The Economic 
Policy Institute estimates that over the last decade our trade 
imbalance just with China has cost the United States nearly three 
million jobs. Many of these jobs have been in manufacturing, a sector 
in which each manufacturing job supports three to four additional jobs 
in the economy. With our economy struggling with persistent high 
unemployment and starving for more rapid job creation, it is no 
surprise that so many working families have such a dim view of the 
future.
    Nor should it come as a surprise that countries across the globe 
have set their sights on one of the few remaining sectors where the 
United States enjoys a positive balance of trade with the rest of the 
world--aerospace. For 2011, the U.S. aerospace industry had a trade 
surplus of $7.25 billion, the largest of any advanced technology 
sector. According to a recent study by Deloitte on the economic effect 
of the U.S. aerospace and defense industries, aerospace products and 
parts manufacturing contribute over $40 billion to U.S. payrolls and 
impact every State. It should be noted that the U.S. military and 
commercial aerospace sectors are deeply interconnected, particularly in 
the supply chain. Many of our members will work on both military and 
commercial aerospace products. Weakening our commercial sector will 
have a direct impact on the capabilities of the U.S. aerospace defense 
industrial base.
    Since the Ex-Im Bank began in the 1930s, its mission has been ``to 
assist in financing the export of U.S. goods and services to 
international markets,'' enabling ``large and small companies to turn 
export opportunities into real sales that help to maintain and create 
U.S. jobs and contribute to a stronger national economy.'' Contrary to 
the position of some organizations, the Ex-Im Bank's mission is 
directed at facilitating exports that support U.S. jobs, and it has 
never been directed to balance the interests of U.S. exporters against 
the interests of some airlines like Delta Air Lines. If Delta were 
truly interested in supporting U.S. workers, it would argue that the 
Bank's rules be changed so that it could be permitted to assist U.S. 
airlines in the purchase of domestically produced aircraft. Sadly, 
while Delta recently took advantage of Ex-Im Bank financing to win a 
contract to perform heavy engine maintenance for a Brazilian airline, 
it seems that Delta is more interested in destroying one of the U.S. 
Government's most effective tools for spurring export growth and 
creating American jobs by seeking to insert language in the Ex-Im Bank 
reauthorization to specifically eliminate financing for widebody 
aircraft.
    Additionally, it is disingenuous to claim to support a robust 
manufacturing industry and at the same time press for legislation that 
would undermine the Bank's ability to simply provide loan guarantees 
for the sale of U.S. manufactured aircraft. If the Bank is hindered, or 
prevented from supporting the export of aircraft made by U.S. workers, 
then U.S. workers, the communities where they live, and our Nation's 
economy will lose--and lose big. Valuable jobs will be lost as foreign 
airlines purchase aircraft made from global competitors whose 
governments' willingly provide financing. If, for example, Air India is 
prevented from utilizing Ex-Im Bank financing for the purchase of 
Boeing widebody aircraft, then they have only one other company to 
purchase aircraft from, Boeing's European competitor, Airbus. 
Consequently, Air India would still be flying the same routes--only 
with European produced wide body aircraft produced by European workers.
    According to the U.S. Chamber of Commerce, small businesses make up 
87 percent of Ex-Im Bank transactions. While much attention is focused 
on large corporations, supply chains stretch across the entire United 
States and the Ex-Im Bank's financing affects firms of all sizes. If 
the Ex-Im Bank is prevented from supporting U.S. manufacturers, 
thousands of additional American jobs will be lost as U.S. companies 
ship more production work abroad where they can take advantage of the 
financing provided by other countries' export credit agencies-financing 
that they would have preferred to obtain from the Ex-Im Bank.
    We must also be clear that our global competitors will not 
eliminate export credit financing. For the United States to do so in 
the brutal world of the global marketplace would be tantamount to 
unilateral disarmament. Without Ex-Im Bank financing the U.S. aerospace 
industry will be at a severe disadvantage, while European competitors 
will be free to support their companies through their comprehensive 
industrial policies. Last, as China's export credit agency grows 
dramatically, why would we want to eliminate the only tool the United 
States has to effectively compete with China, particularly as China 
rushes to develop its commercial aerospace sector?
    Similarly, attempts to weaken the Ex-Im Bank's domestic content 
requirements are dangerous and misguided. Greater domestic content 
means that a greater percentage of the product for export is made here 
in the United States by American workers. If anything, the Ex-Im Bank's 
domestic content requirement should be strengthened. Multinational 
corporations that seek to lower domestic content requirements are the 
same corporations that have shifted thousands of production jobs 
outside of the United States.
    If adopted, the current House language on domestic content would 
increase the likelihood of weakening domestic content guidelines. It 
mandates that the Ex-Im Bank adopt guidelines relying on factors that 
would skew the outcome toward lowering domestic content. This is real 
corporate welfare and the American people will not stand for it. Under 
the House version, the Ex-Im Bank would review its content guidelines 
every 2 years, which would mean that every 2 years we will have to 
battle attacks on domestic content just to maintain the current 
standards.
    The Senate bill does not contain any of these provisions. 
Specifically, it does not require the Bank to develop guidelines based 
on factors which lean heavily toward lowering domestic content, nor 
does it require that the Bank conduct a review of its domestic content 
requirements every 2 years.
    America's global competitors know that exports, and, particularly 
aerospace exports, are vital to a strong economy and have repeatedly 
demonstrated a resolve to provide all necessary means of support to 
enhance export growth. Now is not the time for America to unilaterally 
disarm and surrender one of our last remaining engines of export 
growth, the aerospace industry. We strongly oppose any attempt to 
weaken domestic content requirements. The Ex-Im Bank needs to be fully 
reauthorized for 4 years and its lending cap significantly increased. 
We know firsthand from working with our employers that a short-term 
authorization will add uncertainty to business plans and forestall any 
possible expansion and employment growth.
    Finally, it is clear that both labor and business support the 
reauthorization of the Ex-Im Bank. As America's working families 
struggle in today's difficult economy, they have little patience for 
Beltway politics that continue to stall a proven instrument of export 
growth and job creation like the Ex-Im Bank. I strongly urge this 
Committee and the full Senate to act as quickly as possible to enact 
pending legislation to fully reauthorize the Ex-Im Bank and expand its 
lending cap.
    I thank the Committee for this opportunity to testify and look 
forward to your questions.

              Additional Material Supplied for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
